<html>
<title> - JOINT HEARING ON FEDERAL AGENCY Y2K SPENDING</title>
<body><pre>[Senate Hearing 106-219]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-219

 
              JOINT HEARING ON FEDERAL AGENCY Y2K SPENDING

=======================================================================

                                HEARING

                               before the

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS

                                  and

         SPECIAL COMMITTEE ON THE YEAR 2000 TECHNOLOGY PROBLEM
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

Printed for the use of the Committee on Appropriations and the Special 
             Committee on the Year 2000 Technology Problem


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate

                                 ______

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


                        COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

         SPECIAL COMMITTEE ON THE YEAR 2000 TECHNOLOGY PROBLEM

                   ROBERT F. BENNETT, Utah, Chairman
            CHRISTOPHER J. DODD, Connecticut, Vice Chairman
JON KYL, Arizona                     DANIEL PATRICK MOYNIHAN, New York
GORDON SMITH, Oregon                 ROBERT C. BYRD, West Virginia (ex 
SUSAN M. COLLINS, Maine                  officio)
TED STEVENS, Alaska (ex officio)
                    Robert Cresanti, Staff Director
             Wilke Green, Minority Staff Director<greek-l>


                             C O N T E N T S

                              ----------                              
                                                                   Page

Statement of Hon. David M. Walker, Comptroller General, General 
  Accounting Office..............................................     1
Statement of Jacob J. Lew, Director, Office of Management and 
  Budget.........................................................     1
Opening statement of Hon. Robert F. Bennett......................     1
Prepared statement of Senator Robert F. Bennett..................     3
Statement of Hon. Ted Stevens....................................     3
Prepared statement of Senator Robert C. Byrd.....................     4
Statement of Hon. David M. Walker................................     5
    Prepared statement...........................................     8
Results in brief.................................................     8
Background.......................................................     9
Estimated year 2000 costs continue to escalate...................    11
Emergency funds to be used for a variety of purposes.............    13
Costs for fiscal year 2000 and beyond............................    14
Program and information technology initiatives delayed by Y2K....    15
Lessons learned from the Government's year 2000 efforts can be 
  applied to future information technology activities............    16
Contact and acknowledgments......................................    18
Statement of Jacob J. Lew........................................    19
    Prepared statement...........................................    22
Federal progress.................................................    23
Y2K costs and funding............................................    23
Next steps.......................................................    26
Number of Federal mission-critical systems that are Y2K compliant    28
Has the Y2K problem undermined computer security?................    30
Progress on nonmission-critical systems..........................    33
Are additional Y2K supplemental funds required?..................    35
What progress is being made in contingency planning?.............    36
What is the difference between mission-critical and nonmission-
  critical?......................................................    38
Who will agencies turn to if they have Y2K problems?.............    40
Is the Postal Service Y2K compliant?.............................    41
Need for progress for Federal systems that interact with State 
  and local systems..............................................    41
Progress with our international partners.........................    42
Need for additional Y2K funding..................................    43
Potential need for another flexible fund to respond to Y2K 
  problems.......................................................    45

                                  (iii)


              JOINT HEARING ON FEDERAL AGENCY Y2K SPENDING

                              ----------                              


                         TUESDAY, JUNE 22, 1999

                           U.S. Senate,    
               Committee on Appropriations,
                           Special Committee on the
                              Year 2000 Technology Problem,
                                                    Washington, DC.
    The committees met at 9:35 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman of the 
Special Committee on the Year 2000 Technology Problem) 
presiding.
    Present: Senators Bennett, Stevens, and Gorton.

                       GENERAL ACCOUNTING OFFICE

STATEMENT OF HON. DAVID M. WALKER, COMPTROLLER GENERAL
ACCOMPANIED BY JOEL C. WILLEMSSEN, DIRECTOR, CIVIL AGENCIES INFORMATION 
            SYSTEMS

                    OFFICE OF MANAGEMENT AND BUDGET

STATEMENT OF JACOB J. LEW, DIRECTOR


              opening statement of hon. robert f. bennett


    Chairman Bennett. We welcome you to this morning's hearing, 
which is a joint hearing of the Senate Appropriations Committee 
and the Senate Special Committee on the Year 2000 Technology 
Problem. Senator Stevens has asked that I chair the committee, 
and I am grateful to him for his courtesy.
    We want to welcome our witnesses for coming today as well. 
The topic for today's hearing is oversight of spending on the 
year 2000 technology problem within the Federal Government. Let 
me start out by noting that questioning Government spending on 
Y2K has been likened in some circles to questioning a 
firefighter on the use of water during a fight against a fire 
in a burning building, and I agree with that to a certain 
extent.
    I think it would be a tragedy if we get to the year 2000 
and have serious problems. To have them traced to a lack of 
money and say, ``well, we knew what to do, we had the plans in 
place to do them, but we just did not have the money.'' I 
certainly do not want anyone to accuse the Congress of being 
complicit in a situation like that. Ensuring the uninterrupted 
flow of critical Federal services is too important.
    Our purpose here today is not to assail the Federal 
agencies or the administration for the amount or manner of Y2K 
spending. We recognize that the biggest roadblock we face 
toward getting this problem under control, the biggest scarcity 
we have, is time, not money.
    However, there is always the possibility within the Federal 
Government that money that is appropriated for good and proper 
purposes ends up being diverted some place else. We have a 
responsibility to ensure that the taxpayer dollars have been 
spent for the purpose for which they were appropriated, and at 
the same time that there will be sufficient funds left for 
unexpected Y2K costs that will shortly crop up this year and 
next.
    The appropriations that were made, were made with the 
assumption that there would be some left over after we get to 
January 2000 to take care of problems. We simply do not know 
how much needs to be left over, but it would be irresponsible 
to say, well, this money is available, let's just go ahead and 
spend it.
    Now, here is what we do know. According to the General 
Accounting Office (GAO), Federal spending on Y2K readiness is 
currently estimated to be $8.7 billion, and that is up from 
$2.3 billion that was estimated in February of 1997. I remember 
when that estimate was made, members of our committee were 
highly skeptical that it could be achieved for that, so we are 
now more than three times that original estimate. We may see an 
escalation in the $8.7 billion. It may continue up after 
January 1, 2000.
    Now, we have also learned that many Government agencies are 
not tracking their Y2K costs, and this includes costs funded 
from the $3.35 billion emergency supplemental appropriation. 
That breaks down to $1.1 billion for defense, and $2.25 billion 
for nondefense. We need to determine if these funds are being 
used appropriately and, if not, we should determine where 
additional oversight is necessary.
    The charts displayed here show the growth in Federal 
agencies' Y2K cost estimates and the status of emergency 
supplemental funding for nondefense agencies. That second chart 
is a little hard--not a little hard, it is impossible to read, 
except when you have a hard copy of it in front of you. We 
tried to simplify it but we were unable to because the 
information on it is vital.
    The charts indicate that we have only $450 million left 
through September 30, 2001, the life of the fund. That is one 
of the reasons for this hearing. We are concerned about whether 
there will be money left to clean up problems that come after 
the year 2000 turns, so we must determine if there are adequate 
resources available to meet the future Y2K demands, and we 
suspect that more and more will be spent for Federal agencies' 
contingency plans.
    Now, unfortunately the current pace of contingency planning 
presents us with one of our blind spots as far as congressional 
oversight is concerned, because many Government agencies missed 
the June 15 deadline for submitting contingency plans. This 
failure not only deprives us of any confidence we might have in 
their ability to handle the emergencies, but it also prevents 
the Office of Management and Budget (OMB), GAO, and the 
Congress from estimating how much these contingency plans may 
cost if they are required.
    So with time running out, contingency planning for Y2K 
becomes very important. As we explore the flow of funding to 
the Federal agencies, a lack of contingency planning is not a 
blind spot we can afford to have.
    So with that, Senator Stevens, if you have an opening 
comment we will call upon you now.
    [The statement follows:]

            Prepared Statement of Senator Robert F. Bennett

    Good morning. I would like to thank Chairman Stevens for 
presiding over this joint hearing of the Senate Appropriations 
and Y2K committees. I would also like to thank our witnesses 
for coming today.
    The topic of today's hearing is federal Y2K spending. 
Before proceeding, I think it is important to note that, in 
some circles, questioning government spending on Y2K is likened 
to questioning a firefighter on his use of water on a burning 
building. I agree with that statement to an extent. In fact, I 
believe we should continue to make available the necessary 
resources to ensure that government continues to function on 
January 1, 2000 and beyond. We don't want the lack of money to 
be a reason why the federal government is not prepared for 
Y2K--ensuring the uninterrupted flow of critical federal 
services is simply too important.
    Therefore, my purpose here today is not to assail the 
federal agencies or the administration for the amount or manner 
of Y2K spending. The biggest roadblock to Y2K readiness at this 
point--with only 192 days left--is the scarcity of time, not 
money.
    Having said that, we have a responsibility to ensure that 
taxpayer dollars are not being spent frivolously, and that 
there will be sufficient funds left for the continued 
unexpected Y2K costs that will surely crop up later this year, 
and next. But the truth is, we simply don't know enough to say 
exactly how much will be needed for the remainder of this year 
and future years.
    Here is what we do know: According to GAO, federal spending 
on Y2K readiness is currently estimated to be $8.7 billion--up 
from $2.3 billion in February 1997--and may continue upward 
after January 1, 2000. We have also learned that many 
government agencies are not tracking Y2K costs--this includes 
costs funded from the $3.35 billion emergency supplemental 
appropriation. We need to determine if these funds are being 
used appropriately. If not, we should determine whether 
additional oversight is necessary.
    We must determine if there are adequate resources available 
to meet future Y2K funding demands. In particular, we suspect 
that more and more will be spent for federal agencies' 
contingency plans. Unfortunately, the current pace of 
contingency planning presents us with another blind spot, as 
far as congressional oversight is concerned. Many government 
agencies missed the June 15 deadline for submitting contingency 
plans. This failure not only deprives us of any confidence we 
might have in their ability to handle Y2K-induced emergencies, 
but also prevents OMB, GAO and the Congress from estimating how 
much contingency plans may cost.
    With time running short, contingency planning for Y2K 
becomes very important. As we explore the flow of funding to 
the federal agencies, a lack of contingency planning is not a 
blind spot we can afford to have. Thank you very much.


                     statement of hon. ted stevens


    Chairman Stevens. Well, thank you very much, Senator 
Bennett. I welcome the chance to jointly review this problem 
with you. The emergency supplemental funding is what worries 
me, and I hope that we are keeping track of not only what has 
been spent, but what the demand will be between now and the 
turn of the century. It does appear to me that we have a little 
glitch in terms of contingency planning. I do want to go into 
that with our witnesses this morning. I do not have an opening 
statement.
    I appreciate these charts. They are a little busy, but they 
contain a great deal of information. I do not know if we have 
copies we could provide to the press out there so they can 
understand what we are talking about.
    Chairman Bennett. Yes, indeed.
    Chairman Stevens. Thank you very much.
    Chairman Bennett. Thank you, and everyone should recognize 
that we would not be in the good position we are with respect 
to funds for the year 2000 if it were not for Senator Stevens 
and his very early recognition of this problem and his 
willingness to carve out of the appropriations bill these 
funds. Any other appropriations chairman might have taken the 
position of, ``well, let's wait and see.'' Senator Stevens 
recognized early on that there is no time to wait and see, and 
we are in the good position we are because of Senator Stevens.


                   prepared statement of senator byrd


    Chairman Stevens. Mr. Chairman, Senator Byrd is detained, 
and I would like to have his statement placed in the record, 
and he does have some questions he would like to submit for the 
record.
    Chairman Bennett. That will be placed in the record, and we 
will be happy to forward his questions and receive them at such 
time as he might be available.
    [The statement follows:]

              Prepared Statement of Senator Robert C. Byrd

    Thank you, Mr. Chairman, for calling this joint hearing of 
the Appropriations Committee and the Special Committee on the 
Year 2000 (Y2K) Technology Problem to examine budgeting efforts 
to ensure the Y2K readiness of the executive branch. You have 
provided important leadership on this issue. As an Ex-Officio 
Member of the Special Committee on the Year 2000 Technology 
Problem, I also thank Chairman Bennett and Senator Dodd for 
their good work on this vexing problem. You have both worked 
diligently to raise awareness about this issue and to monitor 
the progress our nation is making toward meeting the immovable 
deadline of midnight, December 31.
    Our nation, indeed, the entire world, is increasingly 
reliant on technology. In the case of the federal government 
and its responsibilities in areas such as defense, emergency 
management services, telecommunications, and benefit programs, 
Y2K readiness is critical. Congress has recognized and 
responded to the importance of this issue by providing 
considerable funds to bring federal systems into compliance.
    The costs are substantial. GAO estimates that federal Y2K 
costs as of May 1999 total $8.7 billion, a dramatic increase 
from the $2.3 billion cost estimated in early 1997. In response 
to emergency needs cited by federal agencies, last year 
Congress provided $3.35 billion in emergency funding through 
the Omnibus Consolidated and Emergency Supplemental 
Appropriations Act. Of the $3.35 billion, $2.25 billion was 
provided for non-defense agencies and $1.1 billion for 
Department of Defense (DOD). Thus far, a substantial portion of 
these emergency funds have been allocated to federal agencies 
by the Office of Management and Budget (OMB). It is important 
that these Committees provide oversight of this spending.
    As December 31, 1999, draws near, we must make every effort 
to ensure that the federal government is Y2K ready. As 
appropriators, we have a responsibility to ensure that the 
funds provided for Y2K conversion are in fact achieving federal 
Y2K readiness and that these funds are accounted for carefully. 
We must also explore whether additional resources will be 
necessary to finish the job, to implement contingency plans, 
and to meet any outstanding needs. I look forward to receiving 
the testimony of our witnesses this morning as we delve into 
these important issues.

    Chairman Bennett. Our witnesses this morning are Hon. David 
Walker, who is the Comptroller General of the U.S. General 
Accounting Office, and Hon. Jacob Lew, who is the Director of 
the Office of Management and Budget. Between the two of you, 
you probably represent more expertise on the budget and the 
cash flow of the Federal Government than any other two 
individuals available, and we are grateful to you for your 
willingness to appear here and look forward to hearing from you 
both.
    We will start, Mr. Walker, with you.


                   statement of hon. david m. walker


    Mr. Walker. Thank you, Mr. Chairman. Good morning, Chairman 
Bennett, Chairman Stevens. Thank you for inviting me to testify 
today on Y2K costs and to discuss more broadly the implications 
of Y2K on future information technology activities.
    Since our February 1997 designation of the year 2000 
problem as a high risk area for the Federal Government, action 
to address the Y2K threat has intensified. In response to a 
growing recognition of the challenge, as well as urging from 
congressional leaders, the administration has strengthened the 
Government's Y2K preparations.
    For example, OMB has now established 43 high impact program 
areas as Government priorities. This list includes such 
programs as Social Security, food stamps, and Medicare. It does 
not, however, include direct national security and revenue 
collection activities. Many congressional committees have been 
extremely diligent in addressing the year 2000 challenge by 
holding agencies accountable for demonstrating progress, and by 
heightening public appreciation of the problem.
    In particular, work done by the Senate Special Committee on 
the Year 2000 Technology Problem has fostered a greater 
understanding of this issue and focused attention on much-
needed actions. Despite the improvements in the Government's 
Y2K approach, significant challenges remain. In particular, 
through year 2000 testing is essential. Further, adequate 
business continuity and contingency plans must be successfully 
completed and tested.
    As shown by this chart, Mr. Chairman, the total estimated 
Y2K costs for the 24 major Federal agencies have more than 
tripled during the last 2 years. A total of about $8.7 billion 
as of the end of last month. Within this $8.7 billion, Federal 
agencies have reported that their year 2000 costs for fiscal 
years 1996 to 1998 were over $3 billion. Some agencies told us 
that they reported these based on actual costs, while others 
reported some costs as actuals, and others as estimates. Still 
others included total estimates, and did not maintain actual 
costs for Y2K, other than for the emergency supplemental.
    With agencies' estimates of Y2K costs increasing 
dramatically, and with limited time remaining to complete 
needed actions, many agencies have requested emergency funds in 
fiscal year 1999. According to their justification submissions 
to the Congress and OMB, three categories of reasons emerge to 
explain organizations' requests for emergency funds: First, new 
requirements that had not been planned for fiscal 1999; second, 
cost increases to complete ongoing Y2K activities; and, third, 
the unavailability of regular appropriations for planned Y2K 
work.
    New requirements included outreach, independent 
verification validation, as well as decisions to replace 
personal computers and network hardware and software for a 
variety of reasons, including to assure Y2K compliance.
    In May 1999, the 24 major departments and agencies 
estimated their fiscal year 2000 costs for Y2K activities at 
about $981 million, almost a ninefold increase from the 
original year 2000 estimate of about $111 million provided in 
February 1997.
    Determining the extent of continued Y2K cost estimation is 
difficult because of many uncertainties. For example, 10 
agencies reported that they have not completed work on their 
mission-critical systems as of mid-May 1999. Key factors that 
could fuel additional cost increases include agencies 
determining that they must implement business continuity and 
contingency plans, or if there are any other anticipated events 
that occur due to the Y2K problem that must be addressed.
    For example, in August of 1998, the Health Care Financing 
Administration (HCFA) estimated that it would need between $300 
million and $500 million to handle emergency contingency 
situations that could result from the Y2K problem. HCFA 
reported that the types of activities that these funds would be 
needed for included unforeseen software, hardware, and 
telecommunications failures, increased paper claims due to 
provider or billing companies' inability to transmit 
electronically, and claims reprocessing to correct erroneous 
repayments.
    The Health and Human Services (HHS) reported to us that it 
requested about $165 million for Y2K activities in its fiscal 
year 2000 budget request. This amount, however, excluded any 
amounts for the implementation of HCFA contingency plans should 
those plans prove to be necessary.
    Other agencies could also have higher costs if business 
contingency and continuity plans need to be implemented. OMB's 
review of agency contingency plans should therefore consider 
whether agencies have provided information on the cost of 
implementing contingency plans if that should be required. If 
not, OMB needs to gather this information quickly so that it 
can share with the Congress what impact this would have on 
potential future funding needs.
    Additional costs could also be incurred if some States do 
not complete their year 2000 work on systems that support 
critical Federal programs such as food stamps and Medicaid. 
Importantly, 10 of OMB's designated high impact programs rely 
on State-level implementation. Information indicates that some 
State systems are not scheduled to be compliant until the last 
quarter of 1999.
    If States do not complete their year 2000 remediation in 
time, or if those remediation efforts fail, the States would 
have to implement their business continuity and contingency 
plans, which could encompass Federal Government assistance 
because of the cost reimbursement mechanisms under those 
programs.
    While making systems ready for year 2000 has been an 
enormous job, other program and information technology needs 
have not disappeared. In fact, they have grown, and continue to 
grow. In particular, because of the year 2000 problem, agencies 
have delayed implementation of regulatory requirements and 
planned information technology enhancements. There is a pent-up 
demand and growing backlog of such initiatives which may have 
significant implications for future funding level requests.
    The total Government-wide volume of program and information 
technology activities delayed by Y2K is not known. Therefore, 
the potential demand for additional information technology 
resources in the future is difficult to predict. However, the 
cost of these delayed activities could be significant. 
Accordingly, OMB will need to work with the agencies to 
determine the magnitude of these pent-up demands in order to 
make informed management and funding decisions in the future.
    In addition to these demands, increased resources will 
likely be needed for another key issue that has garnered 
increased attention, namely information security. As we 
reported in September 1998, the expanded amount of audit 
evidence that has become available since mid-1996 describes 
widespread and serious weaknesses to adequately protect Federal 
assets, sensitive information, and critical operations.
    The computer security issue, which is already on our high 
risk list, will follow on the heels of the Y2K challenge. 
Computer security issues have a range of potential national 
security, economic security, and personal privacy implications.
    There has importantly been a silver lining to the Y2K 
challenge. The Government organizations' experiences in 
becoming prepared for the year 2000 hold valuable lessons about 
how information technology can best be managed. For many 
agencies, the threat posed by the year 2000 problem was a much-
needed wake-up call. Because of the urgency of the issues, 
agencies could not afford to carry on in the same manner that 
resulted in a decade of poor information technology planning 
and program management.
    Earlier this year, we reported that the year 2000 provided 
the opportunity to institutionalize valuable lessons, such as 
the importance of consistent and persistent top management 
attention to be accompanied by reliable processes and 
reasonable controls.
    Another benefit of the year 2000 effort was the 
establishment of much-needed information technology policies in 
such areas as configuration management, quality assurance, risk 
management, project scheduling and tracking, and metrics. 
Beyond individual agencies, the year 2000 problem holds lessons 
in overseeing and managing information technology on a 
Government-wide basis. In particular, actions taken by the 
Congress and the executive branch have demonstrated that 
effective oversight and guidance can have a positive influence 
on major information technology efforts.
    In conclusion, Mr. Chairman, it is clear that Y2K 
expenditures have been significant, sometimes unpredictable, 
and constantly growing. Further, Y2K cost growth may continue, 
especially if business and continuity contingency plans must be 
put into operation, or if State-administered Federal program 
system efforts are not completed.
    In addition, pent-up demand exists for information 
technology enhancements and security activities. OMB needs to 
take steps to estimate the nature and extent of these pent-up 
demands, as well as the contingency expenditures that could be 
incurred related to Y2K.
    On the positive side, while correcting the Y2K problem has 
been and continues to be costly, the experiences of individual 
agencies and the Government as a whole in meeting this 
challenge have provided renewed and needed focus on information 
systems. As we attempt to meet future information technology 
and security challenges, these lessons must not be lost.

                           prepared statement

    This completes my summary statement, Mr. Chairman. I would 
be happy to answer any questions at the appropriate time. Thank 
you.
    Chairman Bennett. Thank you very much. We appreciate your 
statement. Your full statement will be made a part of the 
record.
    [The statement follows:]
                 Prepared Statement of David M. Walker
    Messrs. Chairmen and Members of the Committees: We are pleased to 
be here today to present information on Year 2000 (Y2K) \1\ costs and 
funding and to discuss more broadly what implications the government's 
necessary short-term focus on preparing for the year 2000 will have on 
future information technology activities. In 1997, we designated the 
Year 2000 computing problem as a high-risk area because computer 
failures could disrupt functions and services that are critical to our 
nation. \2\ After providing a brief summary of the issues and 
background information, my testimony today will highlight (1) estimated 
Y2K costs and agency processes to track costs to date, (2) planned uses 
of emergency funding, (3) Y2K costs for fiscal year 2000 and beyond, 
(4) agency program and information technology initiatives delayed by 
Y2K activities, and (5) lessons learned from Y2K efforts that can be 
applied to other information technology activities.
---------------------------------------------------------------------------
    \1\ The Y2K problem is rooted in how dates are recorded and 
computed. For the past several decades, computer systems typically used 
two digits to represent the year, such as ``99'' for 1999, in order to 
conserve electronic data storage and reduce operating costs. In this 
format, however, 2000 is indistinguishable from 1900 because both are 
represented as ``00''. As a result, if not modified, systems or 
applications that use dates or perform date- or time-sensitive 
calculations may generate incorrect results beyond 1999.
    \2\ High-Risk Series: Information Management and Technology (GAO/
HR-97-9, February 1997).
---------------------------------------------------------------------------
                            results in brief
    Meeting the Year 2000 challenge has been necessary but expensive, 
with estimated federal costs rising from $2.3 billion in February 1997 
to $8.7 billion as of last month. From February through May 1999, the 
estimated cost rose $1.2 billion. With respect to Y2K costs incurred 
through fiscal year 1998, the 24 major federal departments and agencies 
reported costs exceeding $3 billion. While some agencies reported 
actual costs incurred through 1998, others reported estimates. In 
fiscal year 1999, agencies have requested emergency funds and plan to 
spend much of these funds on renovation, validation, and implementation 
activities, along with replacing personal computers and network 
hardware and software. Beyond fiscal year 1999, estimated Y2K costs 
have continued to climb, now reaching over $1 billion. Determining the 
extent of continued Y2K cost escalation is difficult because of many 
uncertainties. One major unknown is whether agencies will have to 
implement their business continuity and contingency plans. Such plans, 
if triggered, could entail substantial costs. Agencies' high-level 
business continuity and contingency plans were due to the Office of 
Management and Budget (OMB) by June 15. OMB's review of these plans 
should consider whether agencies provided estimated business continuity 
and contingency plan costs. If not, OMB needs to require that this 
information be provided expeditiously so that it can provide the 
Congress with information on potential future funding needs. We intend 
to review the plans submitted to OMB and advise the Congress of 
potential funding ramifications.
    Another less direct but undeniable issue associated with the Year 
2000 challenge has been the postponement of many program and 
information technology initiatives so that resources could be dedicated 
to Y2K. Such demands--including system enhancements and computer 
security--have not vanished; in fact, they have grown. On the positive 
side, however, the government will likely approach these future 
information technology challenges better prepared, having gained much 
valuable information from experiences in meeting the Y2K challenge. For 
example, this was the motivator that resulted in many agencies' taking 
charge of their information technology resources in much more active 
ways, from inventorying and prioritizing systems to implementing 
reliable processes and better controls. Such lessons should not be lost 
on future information technology projects.
                               background
    With close to half of all computer capacity and 60 percent of 
Internet assets, the United States is the world's most advanced and 
most dependent user of information technology.\3\ Such systems perform 
functions and services critical to our nation; disruption could create 
widespread hardship, including problems in key federal operations 
ranging from national defense to benefits payments to air traffic 
management. Accordingly, the upcoming change of century is a sweeping 
and urgent challenge for public- and private-sector organizations 
alike, in this country and around the world.
---------------------------------------------------------------------------
    \3\ Critical Foundations: Protecting America's Infrastructures 
(President's Commission on Critical Infrastructure Protection, October 
1997).
---------------------------------------------------------------------------
    Since our February 1997 designation of the Year 2000 problem as a 
high-risk area for the federal government, action to address the Y2K 
threat has intensified. In response to a growing recognition of the 
challenge and urging from congressional leaders and others, the 
administration strengthened the government's Year 2000 preparation. In 
February 1998, the President took a major step in establishing the 
President's Council on Year 2000 Conversion. The President also (1) 
established the goal that no system critical to the federal 
government's mission experience disruption because of the Year 2000 
problem and (2) charged agency heads with ensuring that this issue 
receive the highest priority attention. Further, the Chair of the 
Council was tasked with the following Year 2000 roles: (1) overseeing 
the activities of agencies, (2) acting as chief spokesperson in 
national and international forums, (3) providing policy coordination of 
executive branch activities with state, local, and tribal governments, 
and (4) promoting appropriate federal roles with respect to private-
sector activities.
    Among the initiatives the Chair of the Council has implemented in 
carrying out these responsibilities are attending monthly meetings with 
senior managers of agencies that are not making sufficient progress, 
establishing numerous working groups to increase awareness of and gain 
cooperation in addressing the Y2K problem in various economic sectors, 
and emphasizing the importance of federal/state data exchanges. In 
addition, on June 14, 1999, the President ordered the creation of an 
Information Coordination Center--consisting of officials from executive 
agencies--to assist the Chair of the Council in addressing Year 2000 
conversion problems both domestically and internationally. Among its 
duties, the Information Coordination Center is to assist in making 
preparations for information sharing and coordination within the 
federal government and key components of the public and private 
sectors.
    Many congressional committees have been extremely diligent in 
addressing the Year 2000 challenge by holding agencies accountable for 
demonstrating progress and by heightening public appreciation of the 
problem. By holding numerous hearings on important topics such as 
health care, the food sector, electric power, and financial services 
and in issuing a major report \4\ on the impact of the Year 2000 
problem, the Senate Special Committee on the Year 2000 Technology 
Problem has fostered a greater understanding of the problem and focused 
attention on actions needed.
---------------------------------------------------------------------------
    \4\ Investigating the Impact of the Year 2000 Problem (United 
States Senate, Special Committee on the Year 2000 Technology Problem, 
February 24, 1999).
---------------------------------------------------------------------------
    OMB, for its part, has taken more aggressive action on Year 2000 
matters over the past year and a half and has been responsive to our 
recommendations. For example, in its quarterly report issued in 
December 1997, OMB accelerated its milestone for agencies to complete 
the implementation phase of Y2K conversion by 8 months, from November 
to March 1999. OMB has also tightened requirements on agency reporting 
of Year 2000 progress. It now requires that beyond the original 24 
major departments and agencies that have been reporting, 9 additional 
agencies (such as the Tennessee Valley Authority and the Postal 
Service) report quarterly on their Year 2000 progress, and that 
additional information be reported from all agencies. Additionally, in 
response to our April 1998 recommendation,\5\ on March 26, 1999, OMB 
issued a memorandum to federal agencies designating lead agencies for 
the government's 42 high-impact programs, including those delivering 
critical benefits such as social security, food stamps, and Medicare; 
ensuring adequate weather forecasting capabilities; and providing 
federal electric power generation and delivery. (OMB later added a 43rd 
high-impact program--the National Crime Information Center.) Further, 
OMB has clarified instructions for agencies relative to preparing 
business continuity and contingency plans, and required agencies to 
submit high-level versions of these plans just last week, on June 15. 
We intend to review the plans submitted to OMB and advise the Congress 
of our results.
---------------------------------------------------------------------------
    \5\ Year 2000 Computing Crisis: Potential for Widespread Disruption 
Calls for Strong Leadership and Partnerships (GAO/AIMD-98-85, April 30, 
1998).
---------------------------------------------------------------------------
    As you know, we have been very active in working with the Congress 
as well as federal agencies to both strengthen agency processes and to 
evaluate their progress in addressing these challenges. To help 
agencies mitigate their Year 2000 risks, we produced a series of Year 
2000 guides on enterprise readiness, business continuity and 
contingency planning, and testing.\6\ In addition, we have issued over 
100 reports and testimony statements detailing specific findings and 
have made dozens of recommendations related to the Year 2000 readiness 
of the government as a whole and of a wide range of individual 
agencies.
---------------------------------------------------------------------------
    \6\ Year 2000 Computing Crisis: An Assessment Guide (GAO/AIMD-
10.1.14, issued as an exposure draft in February 1997 and in final form 
in September 1997), Year 2000 Computing Crisis: Business Continuity and 
Contingency Planning (GAO/AIMD-10.1.19, issued as an exposure draft in 
March 1998 and in final form in August 1998), and Year 2000 Computing 
Crisis: A Testing Guide (GAO/AIMD-10.1.21, issued as an exposure draft 
in June 1998 and in final form in November 1998).
---------------------------------------------------------------------------
    Fortunately, the past 2 years have witnessed marked improvement in 
preparedness as the government has revised and intensified its approach 
to this problem. Nevertheless, significant challenges remain. In 
particular, complete and thorough Year 2000 testing is essential to 
providing reasonable assurance that new or modified systems will be 
able to process dates correctly and not jeopardize agencies' abilities 
to perform core business operations. Moreover, adequate business 
continuity and contingency plans must be successfully completed and 
tested throughout government.
The Congress Appropriated Emergency Year 2000 Funding
    To address Y2K resource needs, last year the Congress appropriated 
$2.25 billion for civilian agencies \7\ and $1.1 billion for the 
Department of Defense for emergency expenses related to Year 2000 
conversion of federal information technology systems. Through May 1999, 
OMB made six separate allocations totaling about $1.724 billion \8\ to 
civil agencies (77 percent of the $2.25 billion in civilian emergency 
funds) and one allocation of $935 million to the Department of Defense 
(85 percent of its emergency funds). Figure 1 illustrates the 
cumulative amount of emergency funds allocated to nondefense 
organizations and the Department of Defense, and that about $661 
million remains.
---------------------------------------------------------------------------
    \7\ As part of the $2.25 billion for civilian departments and 
agencies, $16.873 million and $13.044 million were designated for the 
legislative and judicial branches, respectively.
    \8\ This amount does not include $13.65 million that OMB allocated 
to the Department of Energy but did not transfer to the department 
because, according to OMB, the House Appropriations Committee did not 
consider the planned use of these monies an appropriate use of 
emergency funding.
[GRAPHIC] [TIFF OMITTED] T14JU22S.000


    Note: This chart does not include the amount set aside for the 
---------------------------------------------------------------------------
legislative and judicial branches ($29.9 million).

    Source: OMB.

    Figure 2 illustrates the entities that received the largest 
allocations.
[GRAPHIC] [TIFF OMITTED] T14JU22S.001


    Note: Appendix I lists all of the entities that received emergency 
funding allocations.

    Source: OMB.

    Regarding Y2K costs and funding, the House Majority Leader asked us 
to (1) identify agency-reported Year 2000 costs through fiscal year 
1998 and the agencies' processes used to track these costs, (2) 
determine the reported status of fiscal year 1999 obligations for Year 
2000 activities, (3) identify estimated Year 2000 costs for fiscal year 
1999 and the planned uses of the emergency allocations, and (4) 
identify the Year 2000 costs for fiscal year 2000. In addressing these 
questions, we requested documentation of actual and planned costs from 
29 federal agencies that provide quarterly Y2K compliance information 
to OMB, plus an additional 12 organizations that had received emergency 
funding. We provided a report to the House Majority Leader on this 
information in April 1999.\9\
---------------------------------------------------------------------------
    \9\ Year 2000 Computing Crisis: Costs and Planned Use of Emergency 
Funds (GAO/AIMD-99-154, April 28, 1999).
---------------------------------------------------------------------------
    In my testimony before the Senate Committee on Appropriations in 
January,\10\ Chairman Stevens, you asked me to return and discuss these 
costs issues further. Accordingly, to prepare for this testimony, we 
updated the information in our April report to include (1) the latest 
cost estimates from the 24 major departments and agencies and (2) 
information on releases from the emergency fund subsequent to our prior 
work.\11\
---------------------------------------------------------------------------
    \10\ Year 2000 Computing Challenge: Readiness Improving, But 
Critical Risks Remain (GAO/T-AIMD-99-49, January 20, 1999).
    \11\ Seven additional agencies received emergency allocations 
subsequent to our prior work and, therefore, were not included in our 
April 1999 report.
---------------------------------------------------------------------------
             estimated year 2000 costs continue to escalate
    As figure 3 indicates, the total estimated costs of ensuring that 
the computer systems of the 24 major federal agencies perform as 
expected beyond 1999 more than tripled during the last 2 years--to a 
total of about $8.7 billion as of last month--up $1.2 billion in the 
past 3 months alone.
[GRAPHIC] [TIFF OMITTED] T14JU22S.002


    Note: The August 1998 through May 1999 figures are totals of all 
individual submissions from the 24 major departments and agencies. In 
its summary of agency reports, OMB decreased total estimated Year 2000 
costs for the 24 major agencies by about $900 million in August 1998, 
$800 million in November 1998, $779 million in February 1999, and $688 
million in May 1999. For the August 1998 costs, OMB did not include all 
costs in its estimate because, for example, it was still reviewing some 
of the estimates provided by the agencies. For the November 1998 and 
February 1999 costs, OMB did not provide explanations in its report for 
all of the discrepancies between the agency reports and their total 
estimated Y2K cost figure. However, the OMB reports covering the 
November 1998 and February 1999 periods did not include $81.3 million 
and $91.7 million in Transportation and Treasury costs, respectively, 
that they stated were non-Y2K costs funded from emergency supplemental 
funds. In OMB's report covering the May 1999 period, it revised the 
amount of Transportation's non-Y2K costs funded from emergency 
supplemental funds to $52 million, but Treasury's amount remained the 
same.

    Source: February 1997 data are from OMB's report Getting Federal 
Computers Ready for 2000, February 6, 1997. May 1997 through May 1998 
data are from OMB's quarterly reports. The August 1998 through May 1999 
data are from the quarterly reports of the 24 major departments and 
agencies.

    Among the agencies that had substantial increases from February 
1997 through May 1999 were the Department of Defense--$969.6 million to 
$3.66 billion (277 percent increase), the Department of the Treasury--
$318.5 million to $1.9 billion (497 percent increase), and the 
Department of Health and Human Services (HHS)--$90.7 million to $1.111 
billion (1,125 percent increase).
Several Agencies Did Not Separately Track Actual Year 2000 Costs for 
        Fiscal Years 1996 Through 1998
    Reported Year 2000 costs incurred each year from 1996 through 1998 
for the 24 major departments and agencies have also grown dramatically. 
Reported fiscal year 1996 costs were about $72 million,\12\ fiscal year 
1997 costs were about $830 million, and fiscal year 1998 costs were 
over $2.7 billion. These reported costs, however, still represent less 
than half of the total Year 2000 costs of $8.7 billion estimated last 
month by the 24 major departments and agencies.
---------------------------------------------------------------------------
    \12\ One agency also reported Year 2000 costs that were prior to 
fiscal year 1996.
---------------------------------------------------------------------------
    While federal agencies reported that their Year 2000 costs from 
fiscal years 1996 through 1998 were over $3 billion, some agencies 
reported actual costs while others reported some costs as actual and 
others as estimates; still others reported just estimates. In 
particular, at the time of our report,\13\ of the 24 major departments 
and agencies, 7 reported that their fiscal years 1996 through 1998 
costs were actual (3 used financial management systems while 4 used 
reports from component entities to track costs), 5 reported that some 
costs were actual while others were estimates (e.g., contract costs 
were actual while labor costs were estimates), 9 reported that they did 
not separately track actual costs for fiscal years 1996 through 1998, 
and 3 did not provide information on cost tracking.
---------------------------------------------------------------------------
    \13\ GAO/AIMD-99-154, April 28, 1999.
---------------------------------------------------------------------------
    With respect to the nine major agencies that reported not 
separately tracking actual costs for fiscal years 1996 through 1998, at 
least three cited as a reason that they were not required to do so. For 
example, the Department of the Interior reported that aside from the 
1999 Y2K Supplemental Funding, the Department has never tracked Y2K 
funding separately from other appropriated funds, as there has never 
been any requirement to do so. With respect to tracking of actual costs 
associated with the emergency funding, five of the nine agencies that 
reported estimated costs for fiscal years 1996 through 1998 reported 
that they were tracking, or planned to track, actual costs associated 
with the emergency funding allocation (the other four agencies did not 
address whether they were tracking these funds or had not received 
emergency allocations).
    While agencies may not be required to track actual costs of Y2K 
activities, we believe that the criticality of Year 2000 activities and 
the significance of the costs--hundreds of million of dollars in some 
cases--indicate that prudent management practices warrant cost 
tracking. Specifically, our enterprise readiness guide \14\ states that 
agencies' Year 2000 program management staff should be able to track 
the cost and schedule of individual Year 2000 projects.
---------------------------------------------------------------------------
    \14\ GAO/AIMD-10.1.14, September 1997.
---------------------------------------------------------------------------
          emergency funds to be used for a variety of purposes
    With agencies' estimates of Y2K costs increasing dramatically and 
with limited time remaining to complete needed actions, many agencies 
requested emergency funds in fiscal year 1999. Thirty-nine civilian 
agencies and the District of Columbia have requested--and received--
emergency funding for a variety of uses, as shown in figure 4.
[GRAPHIC] [TIFF OMITTED] T14JU22S.003


    Note: The other category primarily includes funds for replacement 
of personal computers and network hardware and software. In their 
justifications, some organizations said the personal computers and 
network hardware and software could not be upgraded to be Y2K 
compliant, and in other cases they determined that it would not be 
economical to upgrade obsolete equipment. In addition, the total amount 
in this chart does not equal the total amount allocated because the 
justification data from two organizations did not equal the total 
allocations reported by OMB.

    Source: GAO analysis based on agency justifications.

    In its response to our request, the Department of Defense reported 
that it is targeting almost $525 million for testing, about $262 
million for contingency planning, and $148 million for operational 
evaluations.
    According to their justification submissions to the Congress and 
OMB, three categories of reasons emerged to explain organizations' 
requests for emergency funds: (1) new requirements that had not been 
planned for fiscal year 1999, (2) cost increases to complete ongoing 
Y2K activities, and (3) the unavailability of regular appropriations 
for planned Y2K work.
    New requirements included outreach and independent verification and 
validation (IV&V) (cited by 24 organizations), and decisions to replace 
personal computers and network hardware and software (cited by 23 
organizations)--activities not initially in agencies' fiscal year 1999 
plans. For example, the Department of Commerce requested about $32 
million for IV&V and $25 million for outreach activities not previously 
anticipated.
    Costs for ongoing Y2K activities also increased for 25 
organizations, beyond the fiscal year 1999 projections on which budget 
requests were based. For instance, HHS' Health Care Financing 
Administration (HCFA) requested over $28 million for IV&V activities 
because such work had increased beyond the level planned for fiscal 
year 1999. The Department of Energy requested just under $14 million to 
accelerate renovation, validation, and implementation.
    Finally, in several cases, agencies reported that their budget 
requests were reduced and Year 2000 emergency funding was utilized to 
help make up the difference, even though not all of the activities in 
the original budget request were Y2K-related. While no legislative or 
statutory requirements explicitly provide for the use of emergency 
funds as an alternative to general appropriations, the House-Senate 
conference report on Treasury and Department of State appropriations 
for fiscal year 1999 acknowledges the need for additional monies to 
achieve Y2K compliance, and part of the Treasury and General Government 
Appropriations Act permits use of Treasury funds to achieve Y2K 
compliance until * * * supplemental appropriations are made available * 
* *.
                 costs for fiscal year 2000 and beyond
    In May 1999, the 24 major departments and agencies estimated their 
fiscal year 2000 costs for Y2K activities at about $981 million--almost 
a nine-fold increase from the original fiscal year 2000 estimate of 
about $111 million provided in February 1997. In addition, in their May 
1999 quarterly reports to OMB, three agencies estimated that they would 
incur about $127.4 million in Year 2000 costs beyond fiscal year 
2000.\15\ During our work for the House Majority Leader, we asked 
agencies whether they expected to have Year 2000 costs beyond those 
projected in their budgets. HHS was the only agency that identified a 
specific need: it reported that it had begun to identify possible Y2K 
needs of grantees.
---------------------------------------------------------------------------
    \15\ The vast majority of these costs were reported by the 
Department of the Treasury, which reported that the Internal Revenue 
Service's Y2K costs after fiscal year 2000 would be about $125 million.
---------------------------------------------------------------------------
    Determining the extent of continued Y2K cost escalation is 
difficult because of many uncertainties; 10 agencies reported that they 
had not completed work on their mission-critical systems as of mid-May 
1999, many agencies are still planning or undergoing end-to-end testing 
to ensure that data can be properly transferred and processed among 
systems, and much work with states and other partners remains. Key 
factors that could fuel additional cost increases include agencies' 
determining that they must implement business continuity and 
contingency plans, or the occurrence of other, unanticipated events due 
to the Y2K problem that must be addressed. In August 1998, HCFA 
estimated, for example, that it would need between $311.2 million (most 
likely scenario) and $536.7 million (pessimistic scenario) to handle 
emergency situations that could result from the Y2K problem. HCFA 
reported that the types of activities that these funds would be needed 
for included (1) unforeseen software, hardware, and telecommunications 
failures, (2) increased paper claims due to provider or billing 
companies' inability to transmit electronically, and (3) claims 
reprocessing to correct erroneous payments. HHS' August 1998, November 
1998, February 1999, and May 1999 quarterly reports to OMB included the 
$311.2 million in contingent HCFA costs in its Year 2000 cost estimate. 
HHS reported to us that it had requested about $165 million for Y2K 
activities in its fiscal year 2000 budget request--the amount it 
estimated that it needed to fund other Year 2000 activities, excluding 
the implementation of HCFA contingency plans. Consistent with this, OMB 
has not included HCFA's contingency costs when reporting Y2K costs.
    Other agencies could also have higher costs if business continuity 
and contingency plans need to be implemented. For example, the 
Department of Education's May 1999 quarterly report stated that it 
planned to estimate the cost to implement its contingency plans in the 
next few months and that these estimates would be likely to increase 
its fiscal year 2000 and overall Y2K cost estimates. Similarly, the 
Office of Personnel Management's May 1999 quarterly report said that it 
would continue to evaluate the need for additional Y2K-related funding 
for business continuity and contingency plan implementation and will 
advise OMB of those requirements.
    Our guide on business continuity and contingency planning calls on 
agencies to assess the cost and benefits of identified 
alternatives.\16\ In its May 13 memo requiring agencies to submit high-
level business continuity and contingency plans on June 15, OMB stated 
that agencies should follow our guide in preparing these plans. 
Accordingly, OMB's review of these plans should consider whether 
agencies provided estimated business continuity and contingency plan 
costs. If not, OMB needs to require that this information be provided 
expeditiously so that it can provide the Congress with information on 
potential future funding needs.
---------------------------------------------------------------------------
    \16\ GAO/AIMD-10.1.19, August 1998.
---------------------------------------------------------------------------
    Additional costs could also be incurred if some states do not 
complete their Year 2000 work on systems that support federal programs, 
such as food stamps and Medicaid. Recent information indicates that 
some state systems are not scheduled to be compliant until the last 
quarter of 1999. For example, according to OMB's latest quarterly 
report dated June 15, 1999, three states or U.S. territories did not 
expect to complete testing of their food stamp systems and four states 
or U.S. territories did not expect to complete testing of their 
Medicaid eligibility systems until the last quarter of 1999. Because 
these deadlines are so close to the turn of the century, the risk of 
disruption to these states' and territories' programs substantially 
increases, especially if delays occur or if unexpected problems arise.
    If states do not complete their Year 2000 remediation in time, or 
if those remediation efforts fail, the states would have to implement 
their business continuity and contingency plans, which could encompass 
federal government assistance. An example of such assistance is the 
Department of Labor's April 2, 1999, emergency funding request of 
$274,000 to design and develop a prototype PC-based system to be used 
in the event that a state's unemployment insurance system is unusable 
due to a Y2K-induced problem. In addition, many state-administered 
federal programs, such as Medicaid and child support enforcement, 
require the federal government to reimburse states for a percentage of 
their administrative costs, which would be expected to increase in the 
event that business continuity and contingency plans are implemented.
     program and information technology initiatives delayed by y2k
    While making systems ready for the year 2000 has been an enormous 
job, other program and information technology needs have not 
disappeared; in fact, they continue to grow. In particular, because of 
the Year 2000 problem, agencies or the Congress have delayed 
implementation of regulatory requirements and planned information 
technology initiatives. In addition, many agencies have implemented or 
plan to implement moratoriums on software changes until some time after 
the rollover to the new century. For example:
  --In July 1998, HCFA notified the Congress of its intention to delay 
        implementation of certain provisions of the Balanced Budget Act 
        of 1997 that would have required changes to systems on which 
        Year 2000 modifications were being made. As of June 16, 1999, 
        HCFA had delayed work on seven provisions, in whole or in part, 
        associated with this act in order to meet the Year 2000 
        challenge. In addition, HCFA reported that it had delayed 
        another information technology initiative because it would have 
        caused an unacceptable resource drain from the Year 2000 
        effort. According to a HCFA official, the agency is in the 
        process of carefully examining all of the work associated with 
        the Balanced Budget Act of 1997 provisions and the other 
        initiative in order to make decisions as to the order and time 
        frames in which each will be accomplished after the Y2K effort.
  --As we reported last year, the level of effort required for the 
        Internal Revenue Service (IRS) to make its information systems 
        compliant is without precedent.\17\ Accordingly, as the Senate 
        was debating the IRS Restructuring and Reform Act of 1998, the 
        IRS Commissioner provided the Joint Committee on Taxation with 
        a listing of 28 provisions that given their effective dates, 
        could affect IRS' ability to complete its Y2K work as planned. 
        The final act extended the effective dates for 13 of the 28 
        provisions about which IRS had expressed concern.
---------------------------------------------------------------------------
    \17\ Internal Revenue Service: Impact of the IRS Restructuring and 
Reform Act on Year 2000 Efforts (GAO/GGD-98-158R, August 4, 1998).
---------------------------------------------------------------------------
  --Some agencies have delayed planned information technology 
        initiatives in order to concentrate on their Year 2000 efforts. 
        In December 1998 we reported that the Department of Housing and 
        Urban Development suspended systems integration work on three 
        mission-critical systems so that the department could focus its 
        resources on completing Y2K renovations.\18\ Also, in September 
        1998, the Department of State imposed a moratorium on non-Year 
        2000-related system development projects to focus scarce 
        resources on Y2K remediation.
---------------------------------------------------------------------------
    \18\ HUD Information Systems: Improved Management Practices Needed 
to Control Integration Cost and Schedule (GAO/AIMD-99-25, December 18, 
1998).
---------------------------------------------------------------------------
  --A backlog of system modifications will have to be addressed 
        subsequent to the change of century. In response to our January 
        1999 suggestion,\19\ OMB issued a memorandum in May stating 
        that agencies should follow a policy that allows system changes 
        only where absolutely necessary because such changes can 
        introduce additional risk into systems that have already been 
        certified as Y2K compliant and could divert resources from 
        other Year 2000 efforts. Accordingly, at least six agencies 
        have established, or plan to establish, moratoriums or 
        restrictions on system changes during parts of 1999 and early 
        2000.
---------------------------------------------------------------------------
    \19\ Year 2000 Computing Crisis: Readiness Improving, But Much Work 
Remains to Avoid Major Disruptions (GAO/T-AIMD-99-50, January 20, 
1999).
---------------------------------------------------------------------------
    The total governmentwide volume of program and information 
technology activities delayed by Y2K efforts is not known; therefore, 
the potential demand for additional information technology resources in 
the future is difficult to predict. However, the costs of these delayed 
activities could be significant. Accordingly, OMB will need to work 
with the agencies to determine the magnitude of these pent-up demands 
in order to make informed funding decisions in the future.
    In addition to these demands, increased resources will likely be 
needed for another key issue that has been garnering increased 
attention--information security. This issue has many dimensions, 
ranging from national security to economic disruption to privacy 
considerations. As we reported in September 1998, the expanded amount 
of audit evidence that has become available since mid-1996 describes 
widespread and serious weaknesses in adequately protecting federal 
assets, sensitive information, and critical operations.\20\ These 
weaknesses place critical government operations, such as national 
security, tax collection, and benefit payments, as well as assets 
associated with these operations, at great risk of fraud, disruption, 
and inappropriate disclosures. Further, as we testified in September 
1998, the Year 2000 crisis is the most dramatic example yet of why we 
need to protect critical computer systems because it illustrates the 
government's widespread dependence on information systems and our 
vulnerability to their disruption.\21\
---------------------------------------------------------------------------
    \20\ Information Security: Serious Weaknesses Place Critical 
Federal Operations and Assets at Risk (GAO/AIMD-98-92, September 23, 
1998).
    \21\ Information Security: Strengthened Management Needed to 
Protect Critical Federal Operations and Assets (GAO/T-AIMD-98-312, 
September 23, 1998).
---------------------------------------------------------------------------
    Because of the longer-term danger of malicious attack from 
individuals or groups, it is important that the government design long-
term solutions to this and other security risks. Accordingly, in 
response to recommendations by the President's Commission on Critical 
Infrastructure Protection, Presidential Decision Directive 63 was 
issued in May 1998, which, among other provisions, required federal 
agencies to develop plans for protecting their own critical 
infrastructure, including cyber-based systems. These plans are 
currently undergoing review by the Critical Infrastructure Assurance 
Office, which was established by the Presidential Directive.
lessons learned from the government's year 2000 efforts can be applied 
              to future information technology activities
    Throughout government--and likely in the private sector as well--
organizations' experiences in addressing Y2K hold valuable lessons 
about how information technology can best be managed. For many 
agencies, the threat posed by the Year 2000 problem was a much-needed 
wake-up call. Because of the urgency of the issue, agencies could not 
afford to carry on in the same manner that had resulted in over a 
decade of poor information technology planning and program management. 
Accordingly, lessons learned from the Year 2000 challenge should be 
applied to agencies' implementation of the Clinger-Cohen Act of 1996 
which, in part, seeks to strengthen executive leadership in information 
management and institute sound capital investment decision-making to 
maximize the return on information systems investments. Indeed, the 
Department of Defense has reported that its response to the Year 2000 
problem has become an example of an enterprisewide approach to 
information technology management advocated by the Clinger-Cohen Act of 
1996. It is important that agencies institutionalize the processes that 
they have established to contend with the Year 2000 problem so that 
future information technology initiatives benefit from this massive 
effort.
    Year 2000 programs provided agencies with the incentive and 
opportunity to assume control of their information technology 
environment. In many instances, it forced agencies to inventory their 
information systems, link those systems to agency core business 
processes, and jettison systems of marginal value. For example, in 
response to recommendations in our August 1998 report, the Department 
of State is in the process of identifying its core business functions 
and determining the relative importance of each function.\22\
---------------------------------------------------------------------------
    \22\ Year 2000 Computing Crisis: State Department Needs To Make 
Fundamental Improvements To Its Year 2000 Program (GAO/AIMD-98-162, 
August 28, 1998).
---------------------------------------------------------------------------
    Earlier this year we also reported \23\ that the Year 2000 problem 
provided the opportunity to institutionalize valuable lessons, such as 
the importance of consistent and persistent top management attention, 
accompanied by reliable processes and reasonable controls. More 
specifically, complete and accurate inventories of information systems 
can facilitate remediation, testing, and validation activities. 
Information gained from identifying and prioritizing mission-critical 
systems can further be used to identify and retire duplicative or 
unproductive systems, and work that has been done to identify and 
establish controls over data interfaces can help prevent data exchange 
problems in the future. Similar lessons have been learned at the state 
level, according to three state Year 2000 project managers. Other 
critical success factors cited by one of these project managers that 
could be used in future information technology initiatives are the need 
to measure performance, outline responsibilities, and ensure 
accountability.
---------------------------------------------------------------------------
    \23\ Defense Information Management: Continuing Implementation 
Challenges Highlight the Need for Improvement (GAO/T-AIMD-99-93, 
February 25, 1999) and Year 2000 Computing Crisis: Defense Has Made 
Progress, But Additional Management Controls Are Needed (GAO/T-AIMD-99-
101, March 2, 1999).
---------------------------------------------------------------------------
    Another benefit of the Year 2000 effort was the establishment of 
much-needed information technology policies. Our Year 2000 enterprise 
readiness guide \24\ called on agencies to develop and implement 
policies, guidelines, and procedures in such critical areas as 
configuration management, quality assurance, risk management, project 
scheduling and tracking, and metrics. Several agencies have implemented 
such policies. For example:
---------------------------------------------------------------------------
    \24\ GAO/AIMD-10.1.14, September 1997.
---------------------------------------------------------------------------
  --In April 1999, we reported that according to Postal Service 
        officials, the service is implementing improved processes for 
        documenting software, testing, quality control, and 
        configuration management.\25\
---------------------------------------------------------------------------
    \25\ U.S. Postal Service: Subcommittee Questions Concerning Year 
2000 Challenges Facing the Service (GAO/AIMD-99-150R, April 23, 1999).
---------------------------------------------------------------------------
  --As part of its Year 2000 effort, HCFA has implemented policies and 
        procedures related to configuration management, quality 
        assurance, risk management, project scheduling and tracking, 
        and performance metrics for its internal systems.
  --As we testified in February, the Customs Commissioner has committed 
        to leveraging the agency's Year 2000 experience by extending 
        the level of project management discipline and rigor being 
        employed on the year 2000 to other information technology 
        programs and projects.\26\
---------------------------------------------------------------------------
    \26\ Year 2000 Computing Crisis: Customs Is Effectively Managing 
Its Year 2000 Program (GAO/T-AIMD-99-85, February 24, 1999).
---------------------------------------------------------------------------
    Beyond individual agencies, the Year 2000 problem holds lessons in 
overseeing and managing information technology on a governmentwide 
basis. In particular, actions taken by the Congress and the Chief 
Information Officers Council have demonstrated that effective oversight 
and guidance can have a positive influence on major information 
technology efforts. Congressional oversight played a crucial role in 
focusing OMB and agency attention on the Y2K problem. In addition, 
congressional hearings on international, national, governmentwide, and 
agency-specific Year 2000 problems exposed the threat that this problem 
poses to the public. The Chief Information Officers Council has proved 
useful in addressing governmentwide issues through its Year 2000 
Committee; this committee and its subcommittees have dealt with 
important issues such as best practices, telecommunications, and data 
exchanges. Continued oversight and guidance from the Congress and the 
Chief Information Officers Council will be essential to ensuring the 
future effectiveness of information technology initiatives.
    Another lesson that could be adopted in the future is the use of 
public/private partnerships. To address the Year 2000 problem from a 
national perspective, the President's Council on Year 2000 Conversion 
adopted a sector-based focus and has been initiating outreach 
activities since it became operational last spring. As a result, the 
Council and federal agencies have partnered with private-sector 
organizations, such as the North American Electric Reliability Council, 
to gather information critical to the nation's Year 2000 efforts and to 
address issues such as contingency planning. In addition, the Chair of 
the Council has formed a Senior Advisors Group composed of 
representatives from private-sector firms across key economic sectors. 
Members of this group are expected to offer perspectives on 
crosscutting issues, information-sharing, and appropriate federal 
responses to potential Year 2000 failures. Other major information 
technology areas, such as information security, could benefit from such 
an approach.
    In summary, it is clear that Year 2000 expenditures have been 
significant, sometimes unpredictable, and growing. Emergency 
supplemental funds are planned for a variety of purposes, including 
renovation, validation, and implementation of individual systems and 
the independent verification and validation of these systems. Moreover, 
Y2K cost growth may continue, especially if business continuity and 
contingency plans must be put into operation or if state-administered 
federal program remediation efforts are not completed. While correcting 
the Y2K problem has been and continues to be costly, the experiences of 
individual agencies and the government as a whole in meeting this 
challenge have provided a renewed and needed focus on information 
systems. We have come to realize how much we depend on them, and have 
been reminded of how they must be well-managed. As we attempt to meet 
future information technology and security challenges, these lessons 
should not be lost.
    Messrs. Chairmen, this completes my statement. I would be happy to 
respond to any questions that you or other members of the Committees 
may have at this time.
                      contact and acknowledgments
    For information about this testimony, please contact Joel 
Willemssen at (202) 512-6253 or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c4b55505059514f4f595256125d5551587c5b5d53125b534a12">[email&#160;protected]</a> 
Individuals making key contributions to this testimony included Michael 
Fruitman, James Hamilton, James Houtz, Linda Lambert, Michael Tovares, 
and Daniel Wexler.

Appendix I.--Organizations Receiving Emergency Allocations (as of May 
1999)

                             [In thousands]

        Organization                                    Amount allocated
Department of the Treasury....................................  $602,223
Department of Health and Human Services.......................   323,858
Department of Transportation..................................   192,789
Department of Justice.........................................    84,396
Department of the Interior....................................    80,347
Department of State...........................................    64,918
District of Columbia..........................................    64,049
Department of Commerce........................................    57,920
General Services Administration...............................    48,407
Department of Agriculture.....................................    46,168
Executive Office of the President--Office of Administration...    29,791
Department of Energy \1\......................................    23,840
Department of Labor...........................................    17,792
Department of Housing and Urban Development...................    12,200
Agency for International Development..........................    10,200
United States Information Agency..............................     9,562
Federal Communications Commission.............................     8,516
Securities and Exchange Commission............................     8,175
Federal Emergency Management Agency...........................     7,352
National Archives and Records Administration..................     6,662
Small Business Administration.................................     4,840
Smithsonian Institution.......................................     4,801
Department of Education.......................................     3,846
Federal Trade Commission......................................     2,599
Office of Personnel Management................................     2,428
Overseas Private Investment Corporation.......................     2,100
United States Holocaust Memorial Council......................       900
Corporation for National and Community Service................       800
Executive Office of the President--Office of the U.S. Trade 
    Representative............................................       498
Export-Import Bank of the United States.......................       400
Railroad Retirement Board.....................................       398
National Capital Planning Commission..........................       381
Commodity Futures Trading Commission..........................       356
Selective Service System......................................       250
Federal Labor Relations Authority.............................       243
African Development Foundation................................       137
Office of Special Counsel.....................................       100
Merit Systems Protection Board................................        66
Architectural and Transportation Barriers Compliance Board....        60
Marine Mammal Commission......................................        38
                    --------------------------------------------------------------
                    ____________________________________________________

      Total civil agencies.................................... 1,724,406
Department of Defense.........................................   935,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total allocations....................................... 2,659,406

\1\ This amount does not include $13.65 million that was allocated to 
the Department of Energy but was not transferred.

Source: OMB.
---------------------------------------------------------------------------

                       Statement of Jacob J. Lew

    Chairman Bennett. Mr. Lew, let's go to you now.
    Mr. Lew. Thank you, Mr. Chairman, Senator Stevens. I am 
delighted to be here with you this morning. I appreciate the 
invitation to testify on the progress the Federal Government 
has made in addressing the year 2000 problem.
    As you well know, this is a problem that potentially has 
enormous implications for our Nation. I am very pleased we have 
been able to work together, and I want to thank Senator Stevens 
in particular for the cooperation on working to make sure that 
the funding was in place to make sure that Y2K, as the 
President has said, will be remembered as the last headache of 
the 20th Century and not the first crisis of the 21st.
    I would like to address three topics today: First, the 
Federal progress in addressing the Y2K challenge; second, 
Federal agency costs and funding for these efforts; and third, 
the next steps to assure that Federal programs that people 
depend on will not be disrupted.
    As you know, last week I sent both committees OMB's ninth 
quarterly report on Federal agency progress in addressing the 
Y2K problem. That report shows that Federal agencies continue 
to make excellent progress in addressing the challenge.
    Ninety-three percent of the Federal Government's mission-
critical systems are now compliant, which is an increase from 
79 percent reported in February. Fourteen of the 24 major 
Federal departments and agencies now report that they have 100 
percent of their mission-critical systems Y2K-compliant, and 9 
are over 90 percent.
    This progress is attributed to the hard work of thousands 
of Federal employees and contractors and, I might add, to the 
rapid and timely availability of funding through the contingent 
emergency reserve. I would like to thank the committees for 
ensuring Federal agencies have had adequate funds to address 
Y2K remediation to date.
    While much work remains to be done, we fully expect that 
all of the Government's mission-critical systems will be Y2K-
compliant before January 1, 2000. For some time, fixing the Y2K 
problem has been the agency's number one information technology 
priority. Additionally, agencies are minimizing any kind of 
changes to their systems that are not related to Y2K in order 
to ensure that they will be able to maintain the schedules that 
they have set.
    Based on guidance that we sent out just last month, 
agencies are using change management processes to ensure that 
any new IT requirement changes and system changes are minimized 
while they are completing dealing with the Y2K problem. This 
effort will ensure that agencies set realistic goals for the 
completion of their work, and will enable them and us to 
measure their progress against their own goals. As I said, we 
are confident that every mission-critical system will be ready 
for the year 2000.
    As you know, last September, the administration requested a 
fiscal year 1998 supplemental appropriation for $3,250 million 
in contingency emergency funding to address urgent emerging 
needs related to Y2K activities. The 1999 omnibus bill provided 
contingent funding of $2.25 billion for nondefense activities 
and $1.1 billion for defense-related activities. OMB is 
responsible for allocating the nondefense contingent emergency 
reserve and for working with the Department of Defense (DOD) on 
its share as well.
    To date, $1,768 million has been allocated from the 
nondefense reserve, and $14 million has been returned to the 
reserve at the request of the House Appropriations Committee. 
Therefore, $486 million remains in the reserve for unforeseen 
requirements. Of the $1.1 billion provided for defense-related 
activities, $935 million has been released, and $165 million 
remains in the reserve.
    OMB has worked with the agencies on an ongoing basis to 
evaluate the total Y2K requirements and to determine how to 
best utilize available nondefense funding for Y2K. First, OMB 
made certain that agencies received funding for activities that 
were requested in the President's fiscal year 1999 budget, but 
were directed to be funded from the contingent emergency 
reserve.
    As you know, there were a number of specifically mentioned 
items. Since then, agencies have been asked to forward requests 
for contingent emergency funding on an as-needed basis. These 
requests were then reviewed by OMB to ensure that the requested 
funding meets the criteria for release. First, that the funding 
is Y2K-related, and is the most cost-effective option to 
facilitate compliance; second, that it addresses an unforeseen 
need, not one accounted for within existing agency plans; and, 
third, that it cannot be accommodated within appropriated 
levels for fiscal year 1999. Finally, that they cannot be 
addressed using unobligated balances of already-released Y2K 
funds.
    Once the funds are allocated, OMB tracks the Y2K-related 
expenditures to confirm that appropriate progress is being 
made, and that each agency can cogently explain its cost levels 
and cost changes. All agencies that received emergency funding 
have forwarded data on obligations to date to OMB, and this 
data has informed our consideration of subsequent emergency 
requests.
    In the first OMB quarterly report issued in February 1997, 
we estimated that the cost of Y2K compliance would be $2.3 
billion. Initially, it was thought that fixing the problem 
would primarily involve mainframe computers and legacy 
applications. However, as we and others learned in the course 
of remediation, the problem is far more complex, involving 
desktop personal computers, embedded chips, and 
telecommunications components.
    Cost increases from the first to the fourth OMB quarterly 
report--that would be through March 1998, totalling $2.4 
billion--resulted from better understanding of the scope of the 
problem and increasing agency attention to the cost estimates.
    Since the broader universe of Y2K remediation was clearly 
established, costs have remained within a much more predictable 
band. From the fourth OMB quarterly report in March 1998, to 
the ninth OMB quarterly report just this month, cost reports 
reported change by 4.7 percent of the 3-year total. Of this, 
estimates for defense have changed by 3.6 percent of the 3-year 
total.
    The increase in fiscal year 1999 funding, $2.8 billion 
between the fourth and ninth OMB quarterly reports, has 
reported activities that have been subjected to a rigorous 
policy review. Most of the cost increases can be attributed to 
specific activities, remediation of information technology 
systems, testing to ensure that systems are Y2K compliant, 
replacement of embedded computer chips, and creation and 
verification of business continuity plans.
    Fiscal year 2000 costs, which have increased by $509 
million over the same period, are primarily for Y2K project 
offices to manage and monitor the transition into 2000, as well 
as for retesting and recertifying contingency plans. The 
details of agency spending plans continue to be made available 
for your review as the process moves forward.
    Most of the work on fixing mission-critical systems is 
completed, so OMB will focus its system-readiness on ensuring 
the readiness of individual systems. In addition, OMB and the 
agencies are beginning to focus on two new priorities: ensuring 
the readiness of Federal programs, particularly 43 high-impact 
programs that we have identified, and planning for business 
continuity and contingencies.
    We must make sure that the Federal programs, particularly 
those that have a direct and immediate effect on health, safety 
and well-being of the public, function smoothly. As I have just 
related to you, we are confident that the mission-critical 
systems will be ready, but because Federal programs partner 
with other entities. It is critically important that all 
partners are working together to ensure that the programs they 
support will be ready.
    The critical task is to make sure that not just systems but 
the programs they support will be ready. Accordingly, I have 
asked agencies to take this additional step.
    OMB has also identified 43 high-impact, federally supported 
programs, and directed Federal agencies to take the lead on 
working with others to ensure that programs critical to health, 
safety, and well-being will provide uninterrupted service. 
Agencies have also been asked to help partners develop year 
2000 plans if they have not already done so to ensure that 
these programs will operate effectively.
    Agencies are reporting to us monthly, and will demonstrate 
the readiness of each program by September 30, 1999. Although 
we expect all Federal mission-critical systems to be ready by 
January 1, 2000, it is still important that every agency, no 
matter how well-prepared, have a business continuity and 
contingency plan in place.
    Agencies have identified their core business functions and 
are using this as a basis for developing business continuity 
and contingency plans which will ensure that these core 
business functions will operate smoothly no matter what kinds 
of glitches occur in agency systems or with agency partners.
    Let me make it clear, we do not anticipate disastrous 
consequences as a result of the year 2000 computer problem in 
Federal systems. However, it is possible there will be problems 
that result in minor disruptions to the way agencies operate. 
Agencies are prioritizing functions and systems and work-
arounds and backup plans are being established as 
contingencies.
    On May 13, I issued guidance on this subject, asking all 
agencies, including small and independent agencies, to submit 
to OMB by June 15 their business continuity and contingency 
plans. These plans are an increasingly important component of 
agency progress. Like a good insurance policy, a sound plan is 
important no matter how well you are taking care of your 
system. I have directed agencies to use the GAO guidance in 
preparing their plans.
    Additionally, many agencies are working closely with their 
inspectors general and their expert contractors in the 
development and testing of these plans. OMB is reviewing the 
high-level business continuity and contingency plan (BCCP) of 
agencies and will provide feedback and guidance to the agencies 
on an individual basis.
    In conclusion, during the 192 days remaining before the 
year 2000, we plan to complete work on the remaining mission-
critical systems and on other Federal systems. We will conduct 
end-to-end testing with the States and other key partners, 
placing special emphasis on the readiness of programs that have 
a direct and immediate impact on public health, safety, and 
well-being.
    We will complete and test business continuity and 
contingency plans as insurance against any disruptions related 
to Y2K failures. We will promote Y2K awareness with State, 
local, and tribal governments with the private sector and with 
other nations.

                           prepared statement

    Again, I want to thank you for the opportunity for allowing 
me to share this information with you. The administration 
continues to treat this challenge with the high level of 
attention that it deserves. We have enjoyed the cooperative 
relationship that we have had with this committee and with the 
Appropriations Committee to work together on this problem.
    Thank you.
    [The statement follows:]
                   Prepared Statement of Jacob J. Lew
    Good morning, Chairman Stevens, Chairman Bennett, Senator Byrd, and 
Senator Dodd. I am pleased to appear before the Committees to discuss 
the Federal Government's progress in addressing one of the most complex 
management challenges it has ever faced, the year 2000 problem. The 
Federal Government is not alone in addressing this challenge, as the 
Senate wisely recognized last year when it formed the Senate Special 
Committee on the Year 2000 Technology Problem. This is a problem with 
potentially enormous implications for our Nation. Every sector of our 
economy and all organizations large and small must work together so 
that we can, as the President said in his State of the Union Address, 
make sure that the Y2K computer bug will be remembered as the last 
headache of the 20th century, not the first crisis of the 21st.
    Today, I would like to address three topics. First, I will describe 
Federal progress in addressing the Y2K challenge. Second, I will 
discuss Federal agency costs and funding for these efforts. Third, I 
will describe our next steps to assure that Federal programs that 
people depend upon will not be disrupted. These next steps include 
focusing on completion of individual systems, ensuring the readiness of 
Federal programs, and completion of business continuity and contingency 
plans.
                            federal progress
    As you know, the Federal Government has been working for more than 
three years on this problem. Last week I sent to Congress OMB's ninth 
quarterly report on Federal agency progress in addressing the Year 2000 
problem. That report shows that Federal agencies continue to make 
excellent progress in addressing this challenge. In particular, it 
shows that 93 percent of the Federal Government's mission critical 
systems are now compliant, an increase from 79 percent reported in 
February.
    Fourteen of the 24 major Federal departments and agencies now 
report that 100 percent of their mission critical systems are Y2K 
compliant. These agencies are: the Departments of Education, Housing 
and Urban Development, Interior, Labor, State, and Veterans Affairs; 
the Environmental Protection Agency, the Federal Emergency Management 
Agency, the General Services Administration, the National Science 
Foundation, the Nuclear Regulatory Commission, the Office of Personnel 
Management, the Social Security Administration, and the Small Business 
Administration.
    In addition, two agencies, Commerce and NASA, report that 99 
percent of their mission critical systems are compliant and that they 
expect to be finished soon. Three agencies, the Departments of 
Agriculture, Energy, and Health and Human Services, are between 96 and 
97 percent compliant. Four agencies report that between 90 and 94 
percent of their mission critical systems are compliant, including the 
Departments of Justice and Transportation at 92 percent. The Department 
of Defense reports that 87 percent of its systems are compliant, while 
the U.S. Agency for International Development has completed 
implementation of three of its seven mission critical systems.
    From a base of 6,190 mission critical systems at this time, 410 
mission critical systems remain to be finished, down from 1,354 in the 
last report. The compliant systems include those that have been 
repaired or replaced as well as systems that were already compliant. Of 
the mission critical systems that remain to be finished, 87 (82 
percent) are being repaired, 35 (10 percent) are being replaced, and 24 
(eight percent) are being retired. We are monitoring the completion of 
each remaining system through monthly reports from the agencies.
    This progress is a tribute to the hard, skillful, and dedicated 
work of thousands of Federal employees and contractors. Moreover, the 
rapid availability of funds through the contingent emergency reserve 
has been key to ensuring progress. I would like to thank the Committees 
for ensuring that Federal agencies will not fail to meet the Year 2000 
deadline because of lack of adequate funding.
    While much work remains to be done, we fully expect that all of the 
Government's mission critical systems will be Y2K compliant before 
January 1, 2000. For some time, fixing the Year 2000 problem has been 
the agencies' number one information technology (IT) priority, as other 
IT projects are being delayed until the Y2K work is done. This action 
has been managed throughout OMB's budget process.
    Additionally, agencies are minimizing any kind of changes to their 
systems unrelated to Y2K in order to ensure that they will be able to 
maintain the schedules they have set for completion of their work. 
Changes not only divert resources from fixing the Y2K problem, but may 
also undo Y2K fixes. Based on guidance I issued on May 14, 1999, 
``Minimizing Regulatory and Information Technology Requirements,'' (M-
99-17), agencies are using change management processes to ensure that 
new IT requirements or changes to IT systems are minimized.
    Again, this effort will ensure that agencies set realistic goals 
for the completion of their work and will enable them--and us--to 
measure their progress against their own goals. Agencies are working 
hard to finish fixing their systems, and we are confident that every 
mission critical system will be ready for the year 2000.
                         y2k costs and funding
    First and foremost, I want to recognize that the transition into 
the Year 2000 has posed a unique challenge. Formulating the Federal 
response has required a great deal of attention, hard work, and 
flexibility. In advance of my more detailed comments on this subject, 
let me thank you for all of your work and leadership in helping to 
ensure that sufficient funds are available in a timely manner to 
address Y2K remediation. As we have scrutinized agency requests and 
funded the most critical ones, the utility of this funding mechanism 
has been proven many times. Simply put, without such a fund, many 
Federal agencies would not be nearly as far along in their efforts as 
they are today.
    I would also like to emphasize that the Administration's strategy 
for monitoring Government-wide progress on Y2K has been predicated on 
agency accountability. We have systematically monitored agency progress 
using a range of performance measures--compliance of mission critical 
systems, status of mission critical systems being repaired, progress on 
high impact programs, etc., as well as agency Y2K cost estimates. These 
measures are linked, and together provide the most accurate picture of 
the Government's overall readiness. On a quarterly basis (or more 
frequently, if needed), agencies have been required to update OMB on 
their Y2K progress and to explain all significant changes in these 
measures.
    We have tried to strike the appropriate balance to ensure agency 
accountability without diverting vital resources from Y2K compliance 
activities to reporting requirements. In addition, the Administration 
has tried to be as forthright as possible in sharing information about 
Y2K readiness. OMB has directed that agency quarterly reports and 
detailed spending plans be forwarded to Congress, and we have 
appreciated your input as we have worked together to address the 
challenge posed by Y2K.
    As you know, last September the Administration requested an fiscal 
year 1998 supplemental appropriation for $3.25 billion in contingent 
emergency funding to address urgent, emerging needs associated with Y2K 
conversion activities. This request was consistent with Senate action 
to that point. The Omnibus bill provided contingent emergency funding 
of $2.25 billion for non-defense activities and $1.1 billion for 
defense-related activities for Y2K computer conversion. As you also 
know, OMB is responsible for allocating the non-defense contingent 
emergency reserve. To date, $1.768 billion has been allocated from the 
non-defense reserve, and $14 million has been returned to the reserve 
at the request of the House Appropriations Committee. Therefore, $496 
remains in reserve for unforeseen requirements. Of the $1.1 billion 
provided for defense-related activities, $935 million has been released 
and $165 million remains in reserve.
    In order to determine how to best utilize all available non-defense 
funding for Y2K--both base appropriations and emergency funding--OMB 
has worked with agencies on an ongoing basis to evaluate total Y2K 
requirements. First, OMB made certain that agencies received funding 
for activities that were requested in the President's Fiscal Year 1999 
Budget, but were directed to be funded from the contingent emergency 
reserve. Since then, agencies have been asked to forward requests for 
contingent emergency funding on an as-needed basis. These requests are 
then reviewed by OMB examiners from both the Resource Management 
Offices (RMOs)--liaisons to the individual agencies--and analysts from 
our Information Policy and Technology Branch. In combination, they 
review these requests to ensure that requested funding is:
  --Y2K-related and is the most cost-effective option to facilitate 
        compliance.
  --Addresses an unforeseen need, not one accounted for within existing 
        agency plans.
  --Cannot be accommodated within appropriated levels for fiscal year 
        1999.
  --Cannot be addressed using unobligated balances of Y2K emergency 
        funding.
    In some cases, funds have also been requested to support outreach 
to non-Federal entities in support of the efforts of the President's 
Council on Year 2000 Conversion.
    Once reviewed and discussed with the affected agency, OMB staff 
make recommendations to OMB policy officials. These levels are then 
finalized and included in an emergency release. As you know, pursuant 
to last Omnibus Act, detailed information on each affected agency's 
spending plan, as well as an account-by-account breakdown of the 
request as a whole, is provided to your and other Committees. The funds 
in the release are not made available to the agencies until 15 days 
after the transmittal.
    Once the funds are allocated, each Resource Management Office has 
been tasked with tracking the Y2K-related expenditures for the agencies 
it oversees, including emergency expenditures. At a minimum, the RMOs 
review the agency quarterly report to confirm that appropriate progress 
is being made and that each agency can cogently explain its cost levels 
and cost changes. Then, depending on an agency's status, RMOs have used 
different methods to track Y2K-related spending. All agencies that have 
received emergency funding have forwarded data on obligations to date 
to their RMOs. This data has informed our consideration of subsequent 
emergency requests, and has resulted in several reprogramming requests 
rather than additional releases. For example, in the Department of 
Health and Human Services, we recently reprogrammed funds from HCFA to 
the Administration for Children and Families. More reprogramming 
actions may be forthcoming as agencies further refine their estimates 
for fiscal year 1999 and 2000.
    In addition, some RMOs monitor Y2K-related obligations and/or 
outlays on a more regular basis, and require detailed information on 
the expenditure of both base and emergency resources. Finally, because 
of their unique period of availability (fiscal year 1999-fiscal year 
2001), emergency funds are very transparent in terms of budget 
execution. The RMOs have been given discretion in terms of treatment of 
both base and emergency funds in the apportionment process, as is OMB's 
general policy.
    Your Committees have asked me to focus on the cost increases since 
the 1st OMB Y2K Quarterly Report, which was issued February 1997. In 
that report, the five year (fiscal years 1996-2000) Federal cost of Y2K 
was reported estimated at $2.3 billion. However, it is now clear that 
in the first quarterly report, we were not fully aware of the magnitude 
of the year 2000 problem. Initially, it was thought that fixing the 
problem would primarily involve mainframe computers and legacy 
applications.
    However, as we and others learned in the course or remediation, the 
problem was far more complex, involving desktop personal computers, 
embedded chips, and telecommunications components. Cost increases from 
the 1st to 4th OMB Quarterly Report (through March 1998), totaling $2.4 
billion, resulted from a better understanding of the scope of the 
problem and increasing agency attention on the cost estimates. It is 
important to note that until fiscal year 1999 agencies funded their 
year 2000 costs exclusively out of base appropriations. Prior to the 
availability of emergency funding, all costs increases were absorbed 
within agency operating budgets.
    Since the broader universe of Y2K remediation was clearly 
established, costs have remained within a more predictable band. From 
the 4th OMB Quarterly Report (March 1998) to the 9th OMB Quarterly 
Report (June 1999), costs reported for fiscal years 1996-1998 changed 
by $164 million, or 4.7 percent of the three-year total. Of this, 
estimates for Defense have changed by $128 million, or 3.6 percent of 
the three-year total. Since last March, then, cost estimates for non-
defense agencies for fiscal years 1996-1998 for have changed by a 
little more than one percent.
    The increase in fiscal year 1999 funding, $2.8 billion between the 
4th and 9th OMB Quarterly Reports, has supported activities that have 
been subjected to the rigorous policy review that I have discussed. 
Most of the cost increases can be attributed to specific activities: 
remediation for information technology systems, testing to ensure that 
systems are Y2K compliant, replacement of embedded computer chips, and 
creation and verification of BCCPs. I am confident that this funding 
has helped to ensure that important Federal programs will have a smooth 
transition into the year 2000. Fiscal year 2000 costs, which have 
increased by $509 million over the same period, are primarily for Y2K 
project offices to manage and monitor the transition into 2000, as well 
as for retesting and recertifying contingency plans. The details of 
agency spending plans continue to be made available for your review as 
this process moves forward.
    I would now like to turn to another issue that I have been asked to 
address: the difference between agency estimates and actual costs. I 
believe that this question stems from the cost table in each OMB 
Quarterly Report. In that table, past years (fiscal years 1996-1998) 
are characterized as estimates even though, as you know, the budgetary 
data for those years reflects actual expenditures. With OMB's approval, 
agencies have refined the universe of Y2K-related costs since fiscal 
year 1996. As an activity is added to the Y2K universe, we want to make 
certain that we are capturing the five-year cost of that activity. For 
example, a Department may not have reported embedded chip replacement 
as part of their initial Y2K estimate. However, they later received 
guidance to do so. In such a case, OMB has worked with the Department 
to verify that the multi-year cost of embedded chip replacement was 
being reported. If this required changing an estimate in a past fiscal 
year, agencies did so with OMB approval. At the same time, future year 
estimates may have been adjusted to account for newly recognized 
activities. Thus, although the budget data for fiscal years 1996-1998 
are actuals, since recognition of the scope of the Y2K problem has 
changed over time, OMB has not asked for or characterized costs for 
those years as actuals.
    Another component of this issue is that Y2K-related expenses can be 
aggregated at a level below or above budget accounts. Y2K-related 
expenses are embedded in broader operating budgets. We have worked to 
ensure that we are capturing Y2K-related costs and that agencies are 
making defensible and standardized assumptions about these costs. 
Conversely, we are trying to filter out activities that were wholly 
planned for and would have been implemented regardless of Y2K.
                               next steps
    As I stated earlier, now that most of the work on fixing mission 
critical systems is completed, OMB will shift its focus from aggregate 
figures for system readiness to ensuring the readiness of individual 
systems. In addition, OMB and the agencies are beginning to focus on 
two new priorities.
  --Ensuring the readiness of Federal programs, particularly 43 high 
        impact programs that we have identified.
  --Planning for business continuity and contingencies.
Ensuring the Readiness of Federal Programs
    While we have made excellent progress in preparing our systems, we 
are not yet done. We must make sure that Federal programs, particularly 
those that have a direct and immediate affect on the health, safety, 
and well-being of the public, function smoothly. As I have just related 
to you, we are confident that critical systems will be ready. But 
because Federal programs partner with other entities, including other 
Federal agencies; State, Tribal, and local governments; banks; 
contractors; vendors; and other entities; it is critically important to 
ensure that all partners are working together to ensure that the 
program they support will be ready. The critical task is to make sure 
that not just systems, but the programs they support, will be ready.
    Accordingly, on March 26, 1999, I asked agencies to take this next 
step. I also identified 42 ``high impact'' Federally supported programs 
and directed Federal agencies to take the lead on working with other 
Federal agencies, State, Tribal, and local governments, contractors, 
banks, and others to ensure that programs critical to public health, 
safety, and well-being will provide uninterrupted services. Examples 
include Medicare and Unemployment Insurance. The list was subsequently 
revised to include the National Crime Information Center at the 
Department of Justice, bringing the total to 43.
    Agencies have also been asked to help partners develop year 2000 
plans if they have not already done so to ensure that these programs 
will operate effectively. Such plans are to include end-to-end testing, 
developing complementary business continuity and contingency plans, and 
sharing key information on readiness with partner organizations and 
with the public. Agencies are reporting to us monthly and will 
demonstrate the readiness of each program by September 30, 1999. A 
table of the programs, including the partners agencies are working with 
is included last week's quarterly report.
Business Continuity and Contingency Planning
    Although we expect all Federal mission critical systems to be ready 
by January 1, 2000, and although we are prepared to demonstrate the 
readiness of a number of critical programs, it is still important that 
every agency, no matter how well prepared, have a business continuity 
and contingency plan (BCCP) in place.
    Agencies have identified their core business functions and are 
using these as a basis for developing business continuity and 
contingency plans, which will ensure that these core business functions 
will operate smoothly, no matter what glitch may occur in an agencies' 
systems or with an agencies' partners. While we are confident that the 
measures taken for Y2K compliance are sound, the chance remains that, 
despite testing, a bug may still slip through. Furthermore, elements 
beyond an agency's control are at risk from the Y2K problem as well. 
For example, bad data from a data exchange partner or the inability of 
a vendor to provide key supplies could disrupt work at an agency.
    Let me make it clear that we do not anticipate any disastrous 
consequences as a result of year 2000 computer problems in Federal 
systems. It is possible, and even likely in some situations, that there 
will be glitches in systems that result in minor disruptions to the 
ways that agencies operate. Accordingly, for each core business 
function and its associated systems, agencies have identified risk 
factors, and assigned them a probability rating as well as an impact 
rating. The agencies use these ratings to prioritize functions and 
systems. Work-arounds and back-up plans are established as 
contingencies.
    Although we do not expect any disasters, it is always wise to 
prepare for the worst. Since the 1970s, agencies have been required to 
have in place Continuity of Operations plans (COOP plans), to address 
such emergencies. In the event of a disaster, whether related to Y2K or 
to a national emergency, such as a terrorist attack or regional weather 
emergency such as a tornado or violent snowstorm, agencies are using 
their COOP plans to ensure that the agency will continue to function. I 
also asked agencies to ensure that the development of their BCCP was 
coordinated with pending revisions to each agency's COOP plan. Again, 
although we do not expect any kind of Y2K disaster, agencies are 
developing plans, in coordination with their BCCPs, to address this 
contingency.
    On May 13, 1999, I issued guidance on this subject, ``Business 
Continuity and Contingency Planning for the Year 2000,'' (M99-16). This 
memorandum asked all agencies, including small and independent 
agencies, to submit to OMB by June 15 their business continuity and 
contingency plans (BCCPs). This memorandum also identified a number of 
infrastructure areas for which agencies should make common assumptions, 
such as electric power, financial services, and public voice and data 
communications. This common assumption is that there will be no nation-
wide disruptions within these infrastructure services.
    By setting these risk areas aside from agencies' business 
continuity and contingency planning, agencies are able to focus on 
ensuring that their core business functions and affiliated systems will 
work. In the extremely unlikely event that a catastrophic emergency 
occurs that damages local infrastructure, communications, or the agency 
building itself--whether caused by Y2K, or by a natural disaster, 
terrorism, or war--the agency's COOP plan will address these 
contingencies.
    On the international side, the State Department is leading a 
working group of those agencies with employees overseas in order to 
develop risk assumptions and appropriate responses, to be used in the 
development and refinement of those programs' BCCPs.
    BCCPs are an increasingly important component of agency progress. 
Like a good insurance policy, a sound plan is important, no matter how 
well you have taken care of your systems. To ensure quality and 
consistency, I have directed agencies to use the General Accounting 
Office's (GAO) guidance on this subject in preparing their plans. 
Additionally, many agencies are working closely with their Inspectors 
General and/or expert contractors in the development and testing of 
these plans. Finally, OMB is reviewing the high-level BCCPs of 
agencies, which were due June 15, and will provide feedback and 
guidance to the agencies on an individual basis.
Prepayment
    As part of their contingency planning, some agencies have explored 
the possibility of making some payments in December that would 
otherwise be due in January to beneficiaries, contractors, and others. 
However, the Administration has determined that such actions are not 
necessary at this time, given the level of readiness of agency payment 
systems and agency business continuity and contingency plans. Moreover, 
the extensive downside risk to prepayment mitigates strongly against 
implementing this contingency plan in all but the most exceptional 
circumstances.
    First, and most importantly, issuing such payments early would 
require reprogramming of payroll and other financial management 
systems. I have previously stated that any changes to systems should be 
minimized as they not only divert resources from fixing the Y2K 
problem, but also may undo Y2K fixes. It would be highly irresponsible 
to implement a contingency plan that could worsen the year 2000 
problem.
    Second, making early payments would have tax implications for 
individuals and businesses. Undoing any tax implications would require 
legislative changes for the Internal Revenue Service, which in turn 
would be required to make changes to the tax code and to their systems. 
All of these actions would be both costly and time-consuming.
    Third, such actions could easily be interpreted by the public as an 
overall sign of lack of confidence in the ability of the Government to 
make its payments after January 1. Such a signal could prove disastrous 
for the national economy as panicked citizens turn to withdrawing their 
currency in anticipation of a currency shortage. This sort of panic is 
a self-fulfilling prophecy. Public panic and overreaction is a problem 
far larger than the technology problem and something we are very 
concerned about.
    Finally, even allowing prepayment in extremely limited areas 
increases pressure to provide early payment for everyone.
    Any uncertainty about the readiness of agencies to make benefits 
payments should be mitigated by continuing to focus on fixing and 
testing systems. Agencies should also consider alternative contingency 
plans that do not introduce such high levels of Y2K risk into systems 
or that could propagate public panic.
    Despite these concerns, however, there may be a few rare instances 
in which early payment is the best option. In any such instances, 
agencies may request authority from OMB to pay certain benefits early 
if certain criteria are met. These include demonstration that there 
will be substantial harm to individuals from not getting a timely 
payment, a high likelihood that timely payments (either by normal 
program operation or through a contingency) will not be made, assurance 
that early payments made will be targeted only to those recipients who 
would be harmed, and that early payment will substantially mitigate the 
harm. The agency must also be willing to make a public announcement of 
these decisions and to work with the Department of Treasury so that 
adequate cash management practices are maintained. Throughout the 
remainder of the year, we will continue to review this matter with 
agencies.
                              conclusions
    In conclusion, during the 192 days remaining before the year 2000, 
we plan to:
  --Complete work on remaining mission critical systems and on other 
        Federal systems.
  --Conduct end-to-end testing with the States and other key partners, 
        placing special emphasis on ensuring the readiness of programs 
        that have a direct and immediate impact on public health, 
        safety, and well-being.
  --Complete and test business continuity and contingency plans as 
        insurance against any disruptions related to Y2K failures.
  --Promote Y2K awareness with State, local, and Tribal governments, 
        with the private sector, and with other Nations.
    Thank you for the opportunity to allow me to share information with 
you on the Administration's progress. The Administration continues to 
treat this challenge with the direct, high-level attention it deserves. 
The additional focus on the year 2000 problem by the President, 
Congress, and the public has resulted in agencies focusing management 
attention on the issue and taking a close look at their resource needs. 
The Year 2000 contingent emergency reserve has helped ensure that 
agencies have access to funds to facilitate their work. OMB remains 
committed to working with the Committees and Congress on this critical 
issue. I would be pleased to answer any questions you may have.

   Number of Federal mission-critical systems that are Y2K compliant

    Chairman Bennett. Thank you very much. You use the phrase, 
93 percent compliant as of June. That is the same number that 
John Koskinan reported in the end of March. Are you simply 
reporting that number, or are you telling us subliminally that 
there has been no progress from the end of March?
    Mr. Lew. Well, the February report we submitted was at 79 
percent, so from February until now we have gone to 93 percent. 
I think you have to look at the other areas where we have 
closed in on the 100 percent, and the fact that we have 14 
agencies that are now 90 percent compliant or better.
    Chairman Bennett. I do not want to quibble numbers with 
you, but there are enough people who follow this on the 
Internet. We need to be careful here and give you an 
opportunity to focus on it.
    The President set March 31 as the deadline by which every 
Federal agency was supposed to be 100-percent compliant. A 
number of agencies missed that deadline, and John Koskinan 
reported when that deadline came, a 93-percent overall number 
for the Federal Government. We are now 60 days beyond, 75 days 
beyond March 31, and you are using the 93 percent number. Are 
you using the 93 percent number because that is the last number 
we have and it comes as of March 31, or are you telling us that 
we are stuck, as of March 31, and we are still at the 93 
percent number?
    Mr. Lew. No, Senator, I am certainly not saying we are 
stuck. The numbers I am using are based on the ninth quarterly 
report we submitted to you last week. John Koskinan was basing 
his comments in March on estimates which were not yet in our 
quarterly report system and may have anticipated some of the 
progress that has been made.
    Chairman Bennett. So you are saying the 93 percent at the 
end of March was not fully accurate.
    Mr. Lew. Well, I am saying it was an estimate. The numbers 
in the quarterly report are based on the rigorous review that 
we do of each agency's reporting, and the estimate in between 
reports is necessarily based on--I do not want to say less 
accurate data, but estimates are different than actual numbers, 
as we will probably discuss in other regards as well.
    I think the important thing to focus on is that we are 
making continuous progress and very rapid progress in the areas 
where we had the most catching up to do. Look at the largest 
and most complicated departments, an agency like HHS with HCFA, 
where they have made tremendous progress such that HCFA is now 
compliant. Some of the resources that we thought would be 
needed for HCFA have actually been shifted over to other HHS 
activities because HCFA has completed most of its work.
    You look at the Defense Department, where they have more 
systems than anywhere else. They are down to the point now 
where they are working on their systems that are not yet in 
service, the new technologies that have not yet been put in 
place. They are making great progress to ensure that they have 
continuity and that they do not have the kinds of delays that 
we had feared, if they could not get new systems to be 
compliant.
    So I think we are continuing to make very good progress. I 
do not want to suggest for a minute we do not have a lot of 
work to do. We will be working very hard for the remainder of 
the time we have, and I think you will see in May and June and 
July and August considerable progress in each of the months.
    As I looked over the report, I was struck at how many 
agencies expected to be reporting substantial progress in the 
very near-term timeframe. Now, I am not surprised by that. We 
would hope, given that we are 192 days away from the year 2000, 
that we would be seeing ourselves closing down problems at a 
rapid pace, and that is what our reports are showing, so I 
think we have continued to move forward. If there is some 
confusion between the numbers that were based on estimates and 
the quarterly reports, I would be happy to go through it 
outside of the hearing and look at what might lie behind that.
    Chairman Bennett. I think it is important to get it very 
clear, because one of our problems with respect to Y2K is the 
question of public confidence, and there are those who have 
attacked this committee for being too alarmist. Saying we are 
going to set off a panic that will be worse than the problem. 
Obviously, I do not accept that criticism. I think the 
committee has been responsible, but again, back to the public 
perception here.
    The President said 1 year, 1\1/2\ years ago when he made 
his statement on Y2K, I believe it was at the National Science 
Foundation, that every Federal agency would be 100 percent 
compliant by March 31, 1999. We did not make that. I applauded 
that as the goal at the time he said it, and said that is the 
right goal, and that is what we should strive for, but 
privately I thought, we are not going to make it.
    All right, we did not. Now, the number that was put out by 
the administration as of that date was 93 percent, and we were 
told the new target date for 100-percent compliance is June 30. 
Now, June 30 is 2 weeks away, and if there is an announcement 
as of June 30 that we are 93 percent compliant, people who will 
not go into the details that you have shared with us here are 
going to start to panic and say, the Federal Government is not 
making it, has not had any progress.
    So without asking for a specific response here--and I will 
be talking with John Koskinan tomorrow, we talk every week 
either face-to-face or on the phone--I will just signal that 
there is that public perception problem that has to be dealt 
with. Either the statement is made as of the end of June we are 
now up to 97, or whatever the number, or hey, we need to revise 
what was said in March that it was an estimate. We now know 
that the reality is that--I mean, we adjust statements around 
here all the time, when more data comes in. This is where we 
were in March, and we have made this much progress to June 30.
    I am gathering from your testimony that we will not be able 
to announce on June 30 that we are 100-percent compliant.
    Mr. Lew. No, I do not think we will be able to announce we 
are 100-percent compliant, but I am hopeful we will be able to 
show more continuing progress. Obviously, from our report last 
week to the end of June is a fairly short window, so I do not 
want to raise unreasonable expectations about how much we will 
be able to say, over what is really a matter of a few weeks, 
but we are not just doing quarterly reports.
    We are keeping daily contact, as you mentioned. We are in 
regular contact with the committee as well. If there is a 
concern that we are not putting out frequent enough benchmarks 
of how much progress is made in a way that can be tracked 
clearly by the public, that is something we can look into.
    I think the underlying facts are better than the impression 
that you are suggesting, which means we have a communication 
problem.
    Chairman Bennett. I think there are too, and I think it is 
a joint responsibility of the Congress and the administration 
to get the information out so that we do avoid panic.
    Yes, Mr. Walker.
    Mr. Walker. Mr. Chairman, for the benefit of you and the 
committee, based upon self-reported data that we see from the 
agencies as of May 14, the number was 94 percent, and hopefully 
Jack will end up having more recent numbers in the near future.
    Second, I have asked Joel Willemssen to join me, Mr. 
Chairman, in part because of his expertise and in part because 
of the recognition of the work that he and his team has done in 
the Y2K area working with your committee and others.

           Has the Y2K problem undermined computer security?

    Chairman Bennett. Thank you, and the record will show, Mr. 
Willemssen, that you are at the table and available. If the 
time comes that you need to speak up, you will be identified 
for the record.
    Let me get a dialogue going between the two witnesses for 
just a minute before I call on Senator Stevens. Mr. Walker, I 
was impressed by your statement in two areas, both of which I 
agree with absolutely. The first one had to do with pent-up 
demand. We are finding that in the private sector as well that, 
as we do our hearings in the special committee, more and more 
industries are saying they are going to have no more IT 
activity the last half of 1999 because we are concentrating so 
heavily on testing and final installation of Y2K solutions, and 
since we do not want any new initiatives, there will be a 
significant pent-up demand.
    Some high tech companies on the reverse side of that are 
reporting anticipation of lower sales in the third and fourth 
quarters of 1999, because they say that customers are so 
wrapped up in Y2K they do not have the time to look at anything 
now, and then it will explode in 2000.
    Now, if we have serious Y2K problems, the preoccupation of 
Y2K will not carry over in the first and second quarters of 
2000. The pent-up demand will not hit until they are taken care 
of, but is very much there. I would think, Mr. Lew, that it has 
got to be a real planning headache for OMB, and it is 
information that we in the Congress need as we face the 
appropriations process.
    Because, as Chairman Stevens can tell you more eloquently 
than anybody, dealing with the caps and the challenges of the 
appropriations process is very, very difficult. To say, ``Well, 
there is all this pent-up demand, where we are going to need 
more funds for Y2K capability,'' and that is caused by the 
slow-down, or the interruption, rather, of the normal flow of 
things as result of Y2K, that can be very serious business for 
the Appropriations Committee and its various subcommittees.
    The second issue that I would like you to talk about, 
although perhaps not in the same breath, but just to alert you 
to the other thing I am concerned about, is this question of 
security. Now, Y2K has made a tremendous impact on me at least, 
as it has forced me to confront what will happen to our society 
if the computers fail.
    Now, we are talking about close to $9 billion, and it may 
get to $10 billion by the time we are through, just to keep the 
Federal computers from failing. This amount in the general 
economy is--pick a number--somewhere between $50 and $100 
billion that private entities and the State and local 
governments will spend just to keep the computers from failing. 
The potential for failure is a problem that is built into the 
software.
    The potential for failure as a result of a deliberate act 
on the part of a terrorist group is just as great, and will 
cause just as much devastation as the Y2K. Right now, most of 
the attack, cyber attack if you want to call it that, is coming 
at the Defense Department. I have had conversations with 
Secretary Hamre about that and will continue to have those 
conversations. The Defense Department is hardening itself 
against those kinds of attacks and is building some expertise 
for dealing with them.
    The rest of the economy is not, as nearly as I can tell, 
and some Government agencies are not. I do not want to give 
anybody any ideas, but I can see a scenario where a terrorist 
group says, ``all right, if we want to take down the great 
Satan, we will not attack their military, we will destroy their 
ability to distribute welfare checks, and we can do that much 
more easily than we can hack into the military computers.
    If we want to cause disruption in America, we will shut 
down the power grid, we will shut down the telephone system, we 
will interrupt the flow of commerce by taking down the Fed 
wire.''
    A whole series of security issues that have nothing to do 
with defense, but everything to do with our ability to continue 
to function as a Nation have come to my attention as a result 
of Y2K. I have spoken with the Majority Leader about it, and he 
has encouraged me to use the Y2K Committee to examine these 
issues in the time the committee has left. We go out of 
business on February 29.
    But these are very serious issues, and I was glad to see 
you raise them, Mr. Walker, and at some point in this hearing 
between the two of you, you might want to talk about that.
    So those are the two issues that I want to focus on, the 
pent-up demand, its immediate impact on the appropriations 
process, and then the overall security issue. We will get into 
those questions, Senator Stevens, unless you have a question 
now.
    Chairman Stevens. If they want to comment, that is fine.
    Mr. Walker. Mr. Chairman, I will comment on that.
    First off, on pent-up demand, my experience both in the 
public and private sectors has shown over the years that there 
is always a pent-up demand for wants in the area of information 
technology, but what I think is different because of Y2K is 
that there is increasing pent-up demand for needs.
    You pointed to the fact that many, both public and private, 
entities have frozen changes in their LANs, in their software, 
in various other areas dealing with information technology to 
focus full attention on the Y2K challenge. They need to 
stabilize their environment in order to deal with their most 
immediate time-sensitive need--that is Y2K.
    The fact of the matter is that there is a pent-up demand 
for needs for enhancements as well as the second issue that you 
raise, which is computer security. Computer security is already 
on our high risk list, just as Y2K is. Computer security is 
going to follow up closely on the heels of Y2K. It has national 
security, economic security, and personal privacy 
considerations.
    We are focusing a lot of our time and attention on that, 
and believe that the Congress will need to do the same, as well 
as the executive branch, and I am sure that they intend to do 
so. I think these are two very real issues that not only are 
important from a wants, needs and affords perspective. What can 
we afford? And there are tradeoffs. Money is fungible, and so 
the question is, What are the consequences of these choices?
    Mr. Lew. Mr. Chairman, I think there is no doubt there will 
be some pent-up demand, and that we have separate but very 
important concerns about computer security that are unrelated 
to Y2K. I think I would actually take a slightly different 
tack, I think our experience with Y2K in some ways leaves us 
more ready to deal with both of these issues than we otherwise 
would be.
    In the area of pent-up demand, there are many agencies that 
have much more modern computer systems now than they would have 
had if we had not been dealing with Y2K because, given the 
tightness of appropriated resources they would not have 
replaced their personal computers (PC's), they would not have 
done the work that they have done over the last couple of 
years.
    That does not mean that it is all of what they need for the 
next stage of agency operations, but I think we are left with 
an architecture that is generally better, not just Y2K-
compatible. We need, as we calculate the pent-up demand, to 
really look at what the net pent-up demand is, not of the 
investments we have made.
    The concerns I have looked at are more the programmatic 
than the hardware issues, where agencies have deferred 
activities. You look at HCFA. In order to comply with Y2K 
compliance requirements, they deferred some of their rulemaking 
activity.
    There is going to be a pent-up demand which will mean that 
people have to work on those projects in the coming year that 
they should have done in the past year. I think that has 
potentially programmatic implications. I do not know yet 
whether it has funding implications. I think we have to get a 
little farther into it to determine that.
    In the area of computer security, one of the things that 
the contingency planning process is serving to be very useful 
for is to take contingency planning generally more seriously. 
Many of the contingency plans for dealing with your potential 
year 2000 disruptions are no different, as you mentioned, than 
the kinds of disruptions that could occur from natural or 
hostile acts.
    The Y2K problem is more complex, because the potential of 
things happening in a lot of places is greater, whereas when 
there is a natural disaster it is very local. Presumably the 
same would be true if there are hostile acts, though you raise 
the good question of what the risks are, and are the risks 
growing.
    I think we are more prepared to deal with contingency 
planning now than we were before Y2K remediation was 
undertaken. We had underway, as you know, through the National 
Security Council (NSC) process planning for contingencies in 
this area. I think we need to continue to work together after 
January 1, 2000 on that problem.
    I do not at the moment expect a spike in funding 
requirements for either pent-up demand or the security issues, 
but that does not mean there will not be ongoing funding 
requirements that we have to balance against other needs.
    I think the core issue in both cases is, are the needs 
there greater than the needs in other areas, and do they 
warrant funding.
    The thing about Y2K that was so unusual, and that did 
require the extraordinary funding mechanism that we had, was 
that all the expenses came at once, and we are marching against 
an inflexible deadline, where if we do not do it by January 1, 
2000, it will not deal with the problem.
    In these other areas, while there are serious problems, 
they are problems we can fit into the spectrum of all the other 
things that we do have to worry about, and I look forward to 
working with you on those issues.
    Chairman Bennett. Senator Stevens.

                Progress on nonmission-critical systems

    Chairman Stevens. Mr. Lew, because of where I am from, I 
worry about the nonmission-critical systems, and the definition 
of those, and I raised this last year. Do we have any idea of 
how many such systems there are that are nonmission-critical 
systems?
    Mr. Lew. I do not have a number. I understand the question, 
and I will be happy to get back to you with a number. We are 
not ignoring nonmission-critical systems. The fact that we are 
setting a more absolute deadline for dealing with mission-
critical systems does not in any way mean that we are treating 
the noncritical remediation as something that could wait until 
later.
    Chairman Stevens. Did you ever get an estimate of what it 
would cost to deal with all Federal systems and Y2K 
implications?
    Mr. Lew. I believe the cost that we have been referring to 
would be the $8.02 billion level.
    Chairman Stevens. That is mission-critical.
    Mr. Lew. It is more than mission-critical. It is the total 
expenditure on Y2K. The total compliance is based on bringing 
all the mission-critical systems into compliance at a 
particular time.
    If I could get back to you, Senator, what I would like to 
do is ask some questions about what do we expect in terms of 
lingering funding requirements after January 1 for the 
nonmission-critical systems. I think that may give me a better 
ability to answer your question, and I do not know off the top 
of my head the answer to that question.
    Chairman Stevens. The implication here is that, not 
counting the emergency funds, that agencies have used 
appropriated funds to pay for Y2K problems and deferred their 
normal programming. Is that your statement? You have indicated 
that.
    Mr. Lew. I think it is a combination. I think some of the 
things that they have done with the money were exclusively Y2K-
related. Other activities really have multiple purposes, and 
one of the reasons it has been difficult to give actual numbers 
is that the bookkeeping before 1997 was not very good in terms 
of how much money was Y2K-related and how much of it was just 
generally IT-related.
    As Mr. Walker noted, even now we are dealing with agencies 
that are being much more clear in terms of their defining Y2K 
costs for the emergency funds than they are for their base 
funds. Some of the costs have to be disaggregated to see 
whether they are just Y2K. When you buy a new PC system, it 
obviously is Y2K-related, but it is also giving you 
infrastructure that the agency needed. They are all modernizing 
their computer systems as quickly as they can.
    Chairman Stevens. The indication here is that they deferred 
normal programming activities in order to make those 
adjustments. How extensive has that been?
    Mr. Lew. I think what we have done is, we have built into 
our budget request in the last several years additional 
resources where we saw it as needed for Y2K, and we balanced it 
against the ongoing programmatic activities.
    I think the areas where it would have created the clearest 
direct conflict were some of the funding that was directed to 
come out of the Y2K emergency reserve, and actually that went 
both directions. Some of that funding was really Y2K-related, 
and some of it was funding that we had in the base that we 
thought was only marginally Y2K-related, so a lot of these are 
gray areas.
    I think that when we are dealing with caps, as you and I 
know painfully well, there are tough choices about how we can 
deal with all of the competing needs.
    Chairman Stevens. I am looking at it, as Senator Bennett 
mentioned, from two sides. One, it appears there are a lot of 
things that have been deferred, normal program activities, 
because of the Y2K emergency, and on the other side of the coin 
is that there are increasing demands on the budgets of all 
agencies because of Y2K compliance activities.
    Now, both of those add up to me to a need for more money, 
but it is sort of a feather pillow. I am not getting what I 
need.
    Mr. Lew. I think there are really two different questions 
there. One is, did they get more money than they otherwise 
would have gotten to deal with Y2K within the base funding, and 
in our budget proposals we were allocating dollars to Y2K where 
we were not taking it necessarily from something else. We were 
making our decisions from the ground up. What did an agency 
need to do for its entire mission that had to do with Y2K? We 
came to the conclusion that we could not do it within totals, 
which is why we put the emergency fund proposal in our budget 
last year. It got beyond the point of our ability to work 
within the limits and still meet agency needs and Y2K needs.

            Are additional Y2K supplemental funds required?

    Chairman Stevens. That is what we anticipated, and that is 
why we started the emergency presence. But what I am looking at 
is whether or not, one, are we going to get a supplemental 
request to make up for the moneys that agencies have spent, the 
Y2K activities, in order that they may have the funds to carry 
out their normal programming; and two, are we going to get a 
supplemental request for Y2K activities? This $8.7 billion is 
much higher than we anticipated 1 year ago, or 2 years ago. Are 
there two supplementals out there staring us in the face?
    Mr. Lew. We have no immediate plans for any additional 
supplementals. Our calculation is $8.02 billion total, and does 
assume that we use the emergency funds, but it does not assume 
that we have any additional funding requirements in fiscal year 
1999. The agencies have been using the emergency funds not just 
to deal with mission-critical systems. They have been using the 
emergency funds to deal with noncritical as well as critical.
    I actually have never seen a breakout of how much of the 
money has gone to mission-critical versus nonmission-critical, 
and it is a good question. I actually will go back and ask to 
see it broken out that way.
    I tried to use the example of HCFA as the kind of activity 
where we know that there was a deferral of some work. I do not 
think that that necessarily means we will need a supplemental 
appropriation for HCFA. It means there was a delay in putting 
some regulations into effect. As HCFA works through its 2000 
and 2001 work plans, they will integrate completing the work 
that they deferred with the work that they have to do.
    They may have increased needs overall. Agency needs change 
from year to year. But I do not foresee a spike of additional 
needs because of doing the deferred work that came about 
because of dealing with Y2K remediation.
    It is a fair question. It is something we are keeping our 
eye on. I am not sure we can anticipate everything in advance, 
but I certainly at the moment do not see a huge number of 
deferred activities where we will need to come in for a 
supplemental request.
    Chairman Stevens. Do you have any comment on this, Mr. 
Walker?
    Mr. Walker. Mr. Chairman, first I would agree with Director 
Lew that what we ought to focus on is the net need. Second, as 
we say in our statement, we do believe that there is pent-up 
demand and pent-up need, as there is in the private sector. We 
believe it is important to try to survey that, and try to 
understand the nature and extent of that.
    Chairman Stevens. A need for non-Y2K funds, because of Y2K 
activities?
    Mr. Walker. A need for additional funds because there have 
been projects that have been delayed that may represent need 
rather than want. Director Lew mentioned one, where there are 
some types of activities to implement certain regulations. 
There also could be some computer security related system 
enhancement needs that could be essential and cost beneficial, 
however, they have been delayed.
    I think there is a need to try to inventory that to 
understand the nature and extent, but then there is a 
management decision and a budget decision as to the merits of 
those various proposals, and how they will be handled; but we 
do think it is important to inventory it, because we do believe 
it exists.
    Mr. Lew. The only thing I would add, Senator, is that these 
issues are not new issues, because we have been dealing with 
Y2K. We faced it at the Treasury Department in terms of putting 
a new computer system in place there, where completely apart 
from the year 2000 there was a need for a long-term capital 
program.
    I am not sure, net of what we spent on Y2K, that it is as 
much a question of pent-up demand as it is fitting those IT 
requirements into the many demands that agencies have for 
resources. If there is a pent-up demand we certainly should, as 
the Comptroller General says, try to keep an eye on it and 
coordinate it in a managed way.
    I just would not put up a red flag that there is a crisis 
looming. We may have additional requirements in these areas 
completely apart from Y2K. The question of cyber security is 
something we will have to keep dealing with. I do not think we 
should confuse the pent-up demand issue with what the absolute 
requirements are, and if so, it is just a timing question.
    On the other hand, we should not panic. We are in better 
shape now in terms of contingency planning than we have ever 
been in the past, and I think as we continue to deal with these 
questions we will have a much better knowledge.

          What progress is being made in contingency planning?

    Chairman Stevens. I visited two major industries where they 
had been told that their systems were Y2K compliant and on a 
test found that they were not. Now, we are relying on this 
testing. It is sort of a self-testing process of each agency, 
but as I understand it, the cost of contingency planning is not 
permitted to be paid out of the emergency money, is that right?
    Mr. Lew. Well, actually I would distinguish between 
contingency planning and funding of the contingency plans. We 
are helping agencies deal with funding requirements for the 
contingency planning. We are just beginning to see them, so I 
do not have a wealth of material to draw on yet.
    As we see the plans, I think we can expect that the plans 
will identify two kinds of risks. One is risks that their own 
systems will fail and there may in fact be additional funding 
requirements there. As you know we continue to have $496 
million in the nondefense and $165 million in the defense 
reserve, some of which may well be used for the agency 
contingency plans.
    Chairman Stevens. You use that for planning, or plans?
    Mr. Lew. There may well be funding needed for plans. If 
they need to back up their own systems internally there is a 
whole separate kind of contingency planning where I do not know 
that we have the authority to fund it. We may need to talk 
further about this if they identify problems that are not their 
own, but problems that are connected to the environments they 
are in, such as telephone and electric grids.
    Obviously, we do not have the resources to do contingency 
plans for every agency so, if there is a localized power 
failure for a brief period of time we will bring the whole grid 
back up. Utilities are dealing with that, and they are dealing 
with it quite well.
    I think the question we have to answer is if there is a 
localized problem, does each agency have a credible plan so 
that it can continue its operations while the local utility is 
dealing with the outside problem.
    We may decide that we want to take on as a Federal 
obligation, and I do not think I would recommend it, dealing 
well beyond the ambit of Federal responsibility. Clearly we do 
not have the resources for that, but that is also not a Federal 
responsibility. What we are trying to do is make sure that it 
is coordinated, that information is readily available, and to 
provide the leadership so that each of the different parts of 
the environment that Federal agencies find themselves in is 
also making the kind of progress they need to make.
    We do not anticipate the kind of massive electric or 
telephone failures that people worried about years ago, but 
that does not mean there will not be isolated incidents. The 
purpose of contingency planning is to be able to respond, so we 
have continuity in all Federal operations.
    Chairman Stevens. Do we have any idea what the cost of 
those plans will be?
    Mr. Lew. The June 15 deadline just passed. We have received 
some, not all. I would not even say most of them yet. Over the 
next several weeks we will review them and we will continue to 
work with the committees as we get a better understanding of 
what the contingency plans call for.
    I think the agencies are struggling a little bit in terms 
of putting the price tag themselves on what are in some cases 
fairly imponderable costs. I think as they narrow down to the 
cost for their own backup plans, that is an area that is much 
more concrete. We will start to see what the numbers are fairly 
quickly on those. I do not anticipate that those will be 
enormous, but if they do turn out larger than we expect, we 
will come back as soon as we know more.
    Chairman Stevens. Mr. Walker.
    Mr. Walker. Mr. Chairman, we tried to note on page 13 of 
the full statement how much of the emergency supplemental to 
date has been spent for contingency planning. It is over $300 
million, primarily the Defense Department, but also about $77 
million for the civilian agencies.
    As Director Lew noted, there is a need to try to get your 
arms around what type of plans are necessary on a contingent 
basis, and it is a separate and distinct matter as to what cost 
might be necessary if those plans have to be implemented, and 
that is something that is important to focus on.
    Chairman Stevens. Do the contingency plans themselves have 
to be tested, in your judgment?
    Mr. Walker. We do believe they need to be reviewed. We plan 
to review them. OMB needs to review them first. I believe they 
are due later this month. Joel, do you have a comment?
    Mr. Willemssen. Yes. OMB has noted that they are following 
our guidance on contingency planning. One of the key phases in 
doing that is validation and testing of those plans. We have 
recommended that the validation and testing be completed no 
later than September 30 of this year.
    Chairman Stevens. Do you have the sense that we have enough 
funds available now to deal with this total Y2K problem on the 
Federal level without any additional money, Mr. Walker?
    Mr. Walker. Mr. Chairman, the real key is that, for fiscal 
year 2000, there are certain unknowns. As Director Lew said, we 
have still got 10 Federal agencies that have not completed 
their own remediation testing efforts.
    Second, 10 of the 43 critical Federal programs have 
significant State involvement. Many of those States are not 
going to be completed with the Y2K efforts until the fourth 
quarter of this calendar year.
    In addition, there are other factors that frankly, until we 
get more clarity on those, it is difficult, if not impossible, 
to predict the funds that will be necessary. The real key is, 
what are the tradeoffs?
    If additional funds are needed for Y2K, there are several 
ways to handle that. Obviously, one way is through a 
supplemental. Another way is through changing priorities within 
the existing baseline, and the key is to try to understand what 
the possibilities are, what the magnitude might be, and to be 
able to make informed choices about what those tradeoffs should 
be.

    What is the difference between mission-critical and nonmission-
                               critical?

    Chairman Stevens. Both of you were talking about internal 
reprogramming. There could be a massive amount if there are any 
contingencies that develop between now and the end of the year, 
and we are dealing with two different fiscal years as far as 
the restraints on spending. I do hope that we are monitoring 
the marshaling of this money towards achieving objectives 
within the laws available. Maybe we need some additional 
flexibility on this, and if you do, we might have to give it to 
you in one of these bills. I would hope that you would both 
look at that.
    But one of the critical problems here to me is the 
definition of what is critical. I am afraid the people sitting 
here in Washington have an idea of what is critical, and people 
out in the rural areas, and the western States in particular, 
have an entirely different attitude about what is critical. Has 
anyone reviewed the definition of what is critical in your 
agency?
    Mr. Walker. Mr. Chairman, let me comment on a couple of 
things, and I would ask Joel to add. First, the dollars that 
have been spent so far have been spent on Y2K, both mission-
critical and nonmission-critical systems. Second, at this point 
in time we believe the important thing to focus on is the 
programs.
    Candidly, the taxpayers, our citizens care about the 
results, they do not care about the process, and so the key is 
to assure, either through the remediation efforts or through 
the contingency planning that the programs will operate as 
intended at the taxpayer and the citizen level.
    And Joel, I would ask you to add.
    Mr. Willemssen. Mr. Walker hit it right on the nail. We 
have applauded what OMB has done in terms of moving its focus 
away from systems and into programs. I think there is still 
room for debate as to whether they have targeted the right 
programs. As Mr. Walker mentioned in his statement, there are 
some outliers that are not within the definition of the 43 
programs that I think would raise some issues, but I believe 
now OMB has the correct focus, especially on testing end-to-end 
multiple systems. I think that is the appropriate emphasis that 
now needs to be placed.
    Mr. Lew. That is actually the point I was going to make. 
The value of testing is that we will have a much better 
understanding if there is going to be a problem in rural areas, 
or in isolated areas. That is one of the reasons the funding 
has been going out in the pattern it has. As we have discovered 
problems, we have been using funds to deal with the problems.
    We have been very careful, and frankly I think you deserve 
a lot of credit for designing a flexible-enough authority so 
that we have had the authority to fund basically everything we 
have needed to fund while still reserving resources for the 
final period.
    The imponderable about the contingency planning is 
different from whether we are taking the kinds of effective 
steps to deal with the programmatic needs that agencies have, 
and I think it would be a mistake to think that there is a 
looming, huge problem in terms of basic agency operations that 
are unfunded.
    If we discover that the contingency plans have funding 
requirements that are greater than what we think they will be, 
I assure you it is not something we would just keep to 
ourselves. Just as we shared with you the need for the $3\1/4\ 
billion emergency fund, we would come back. I just at this 
moment do not anticipate it, and frankly it gets into an area 
fairly quickly that is not the Federal Government's primary 
responsibility. We have been using the money that was 
appropriated to deal with the testing to make sure that we 
discover, within the Federal systems, what else we need to do.

          Who will agencies turn to if they have Y2K problems?

    Chairman Stevens. Do we have any reserve capacity for the 
Government as a whole? Is there an agency that has been 
designated to come forward and assist any Federal program that 
runs into a glitch in the last part of the year?
    As the next fiscal year started sometime after October 1, 
you run into problems. Who do these agencies turn to for 
assistance if some real difficult problem emerges that has not 
been contemplated?
    Mr. Lew. As you know, John Koskinan has been coordinating 
overall the administration's planning and implementation of the 
Y2K effort. That has been, I think, a very effective process 
where we have had agency heads take on the responsibility 
personally to make sure that they were doing what needed to be 
done, and coming in with the kind of technical support.
    We do not have a formal process where there is one agency 
that is doing things for the other agencies, but there has been 
a lot of sharing of information and cooperation amongst 
agencies in the way that you would want to see in a situation 
like this. As one agency learns something we do not wait for 
each of the others to discover it on their own, there is a 
sharing of information.
    Chairman Stevens. I am looking for something different. We 
have the Federal Emergency Management Agency (FEMA) if there is 
a natural disaster. What agency has the role of FEMA in dealing 
with Y2K, if something really goes bad in December?
    Mr. Lew. Let me distinguish the work up until January 1 and 
deal a little bit separately with what happens in the immediate 
period at the new year.
    The President made it very clear that it was the obligation 
of each agency head to assure that his or her agency was taking 
the action needed. Frankly, if there was a more centralized 
responsibility we would not be able to sit here today and 
report the kind of progress that we have made.
    Chairman Stevens. I am not interested in that. I am 
interested in emergency assistance at a time when it may be 
needed.
    Mr. Lew. In terms of emergency assistance, we have planned 
for what we call an Information Coordination Center which we 
have worked with the committees on to bring together 
information at the end of the year. At the beginning of the new 
year, as we learn of disruptions, as we learn of problems, so 
that there will be a clear flow of information and an ability 
to muster appropriate responses.
    I think that is more of an information exercise than it is 
a command and control exercise. It is not that we have a 
special weapons and tactics (SWAT) team that will go in, but it 
is a way to marshall the resources of the Federal Government to 
deal with situations as they occur. It is not the case, as in a 
natural disaster, where we designate FEMA or one agency to be 
the lead agency, because frankly, the problems are not 
necessarily going to be within the expertise of one agency.
    If you have a transportation issue, the Department of 
Transportation is going to deal with it. If you have a 
communication issue, it is largely going to be private, and 
more information at the Federal level rather than action at the 
Federal level.
    But there is going to be information coming in. Frankly, 
January 1 will come in many hours earlier in other parts of the 
world. We will gather information from what happens in other 
parts of the world and be able to perhaps take some 
preventative steps as we learn what happens in other places and 
be able to have the preparedness in real time.
    I do not think that it would be as effective, frankly, if 
we had a single designated agency that would deal with all 
problems that might arise, because it would be more than any 
one agency could handle within its expertise.
    Mr. Walker. Mr. Chairman, four points that might be 
helpful. Obviously, John Koskinan has been handling overall 
interagency coordination and strategic planning. Second, it is 
my understanding that for each of the high-impact programs OMB 
has designated, in working with John Koskinan, a lead agency 
has responsibility for that program, even though there may be 
numerous agencies that have to be involved.
    Third, based upon our experience so far, if there is one 
agency that probably has shined in this, it has been the Social 
Security Administration, but obviously no one agency, as 
Director Lew noted, could really handle contingency planning 
for everything.

                  Is the Postal Service Y2K compliant?

    And last, but certainly not least, the Postal Service is 
critical. They are making progress, but they represent the 
contingency plan, or have an integral part in the contingency 
plans of not only the Federal Government but, quite frankly, 
the private sector, and that is one I think we have to keep our 
eye on the ball.
    Chairman Stevens. Who is monitoring that?
    Mr. Walker. I am sure that OMB and we at GAO are monitoring 
their progress.
    Chairman Bennett. Can you tell us where they are?
    Mr. Willemssen. The Postal Service after a fairly slow 
start has made very rapid progress, and we have recently 
testified that the kind of management controls that they have 
put in place should give them greater assurance of being ready 
in time. There are still some risks, such as a number of 
systems that they have to get ready in a relatively short 
period of time, but the attention is now being placed on that, 
and frankly that was not the case some time ago.
    I think one of the things that spurred the Postal Service 
on was when OMB last year put their additional reporting 
requirement on other entities beyond the 24 major Federal 
departments and agencies. That led to the Postal Service coming 
in with their first report, and that first report raised a lot 
more questions than it did answers. That led to enhanced 
oversight which contributed to the Postal Service being on the 
road they need to be on.

  Need for progress for Federal systems that interact with State and 
                             local systems

    Chairman Stevens. What about the Federal systems programs 
that interface with the State and local activities such as food 
stamps, Medicare, and others that are dependent on State 
actions and State implementation?
    Mr. Willemssen. I think there remains much room for concern 
there, and OMB is very aware of those concerns. States are 
working quite diligently with the Federal agencies, but many of 
those States do not plan to be compliant until the end of the 
year.
    What we have seen as a model agency in terms of oversight 
of State systems has been the Health Care Financing 
Administration and Medicaid. When we came out with a report 
last fall that indicated that only about 16 percent of those 
systems were compliant, the Administrator of HCFA took the lead 
and obtained needed contractor help.
    They've gone out and done risk assessments and visits of 
all States. They completed that first round in April and made 
detailed risk assessments. They are now in the midst of doing a 
second round of visits and, concurrent with that, they have 
outside help focusing on contingency planning for those States.
    It is really a very good model, one that could be emulated 
by some of the other Federal agencies in working with their 
State partners. Although it is getting fairly late in the game, 
we think with the time remaining, activities like that could be 
very beneficial.

                Progress with our international partners

    Chairman Stevens. I have taken a lot of time. One last 
question, and this is a North American economy now, not a 
United States economy. What about Canada and Mexico, and the 
tremendous interface of our private economy with our neighbors 
to the north and south?
    Mr. Lew. Senator, we have participated actively in 
international forums to help other countries learn from our 
experience as we discovered what needed to be done. In fact, 
the largest conference ever in terms of U.N. focusing on a 
single topic is being held either this week or next week in New 
York. I do not know for a fact, but I assume Mexico, Canada, 
and most of the countries of the Western Hemisphere are 
participating.
    The challenge we have is, we clearly cannot take on as a 
U.S. obligation direct responsibility for the systems in other 
countries, but we have been trying very hard to share 
information and help others learn to take responsibility and 
take the actions necessary.
    I do not have country-by-country reports. We would be happy 
to get back to you if you have specific questions about Mexico 
and Canada. I suspect the bigger concerns we have are in other 
parts of the world, though.
    Chairman Stevens. Well, that is a prime time for illegal 
immigrants to cross the border from California all the way over 
to Louisiana.
    Mr. Lew. That is obviously a question of our critical 
systems working, and that is our responsibility.
    If I could just respond on the question of the States, 
because I think it is one of the significant issues we have to 
continue to focus on from now until the end of the year. It is 
more difficult in the sense that it is not something we can 
just go out and fix. We have to work with others to fix their 
systems.
    But we can encourage and require that there be backup 
arrangements, and that there be testing. We have been providing 
that leadership. Putting into the quarterly report the State-
by-State data we inputed was a very useful step in terms of 
getting each of the agencies to work with the States on their 
systems and, frankly, to put the public attention on which 
States are scheduled to be completed and which States are 
falling behind. I know that up here there is a lot of concern 
not just for the aggregate number, but on each individual 
State, and I would commend to your attention the State-by-State 
data in the ninth quarterly report.
    We are going to be doing that on a regular basis from now 
through the end of the year. We have directed the agencies to 
work closely with the States to try and be helpful to them as 
they plan their own activities, but this is one of the 
remaining challenges that is going to require a lot of our 
attention.
    Chairman Stevens. Thank you very much, Mr. Chairman.

                    Need for additional Y2K funding

    Chairman Bennett. Thank you. This is just a little bit of 
institutional jealousy, and I probably should not say it, but I 
will anyway. Mr. Lew, you made the comment, in your words, ``we 
shared with you the need for the $3\1/4\ billion emergency.'' 
Just for the record, the initiative for the $3\1/4\ billion 
emergency came from Senator Stevens. I was in the room when he 
came up with that number and announced it.
    I remember the phone call I received from John Koskinan 
where he said, ``Senator, we had no idea you were going to do 
that. We had no tip-off at OMB in advance that this Congress 
was going to do that.'' I thought he was going to complain that 
the Congress was doing things, and then he said, and we think 
it's a really, really, really good idea. So I think just for 
the record Senator Stevens should receive the credit for having 
come up with that.
    Let me talk about that supplemental. After the allocations 
against the funds, there is $165 million in reserve, as you 
said, for defense, and $400 million for nondefense. Mr. Walker, 
you say in your testimony that the cost of end-to-end testing 
and contingency plans will be high.
    Do you share my concern that these reserve funds may not be 
enough? That too much of the money that was allocated in the 
emergency, $3.25 billion in emergency money, has already been 
spent, given the size of what we are still looking at, or do 
you think the expenditures and allocations up until now have 
been about right, and that these reserves are adequate? Either 
one of you.
    Mr. Walker. Mr. Chairman, I think there are two issues. One 
issue is whether or not the remaining funds that exist in the 
reserve will adequately cover all the additional Y2K costs 
versus whether or not there is a need for an additional 
supplemental, for example. I think there is a much higher risk 
that there will be more money necessary in order to address all 
the Y2K issues, given the contingencies that we have 
articulated today.
    I think it is a separate and important, yet somewhat 
distinct, question as to how best to do that. Will it be 
through tradeoffs in other funding that already exists in 
fiscal year 2000 for these programs, or will there be a need 
for supplemental funding, and I would ask Director Lew to 
comment.
    Chairman Bennett. Do you share that view? I have the 
feeling you have a slightly different view.
    Mr. Lew. The reason I am hesitant is that we are just 
beginning to review the contingency plans for the agencies. The 
real answer to the question will come after we have reviewed 
their plans.
    Frankly, the early plans we are getting do not have cost 
estimates in them in many cases, so we have to go back and work 
with the agencies. To the extent that contingency planning 
costs are much larger than we have anticipated I would have a 
very different response. If the contingency plans fit within 
what we have expected, and I will not know that for several 
weeks, to the extent that they identify expenses that are not 
within the authority of the emergency fund, we would clearly 
need to come back and seek additional flexibilities.
    I did not mean to detract at all from the contributions of 
Senator Stevens in particular. We very much appreciate it. We 
put a place marker in our budget, as you know, and it became 
real when Senator Stevens offered the amendment that he did and 
the flexibility the fund provides is very helpful.
    Chairman Bennett. Just a little executive branch-
legislative branch----
    Mr. Lew. I appreciate that. The answer to your question 
ultimately I think would be something I would want to get back 
to you after we have reviewed the continuity and contingency 
plans, because I think that is where the wild card would be.
    At the moment, I cannot sit here today saying we anticipate 
tremendous additional needs, though I think Mr. Walker is right 
that to the extent that there are ongoing requirements. Either 
at the very end of this year or at the beginning of next year, 
there may be some tension within the existing budgets. That is 
not always a bad thing. I mean, agencies do deal with some 
costs that are outside of their normal business without it 
causing tremendous disruption.
    What happened in Y2K was the amounts required so far 
exceeded the ability to manage the totals, so it was necessary 
to have the emergency fund.
    Chairman Bennett. Senator Stevens has an additional 
question, but before he gets to that, let me just pick up on 
what you are saying about the contingency plans. Your deadline 
was June 15. By your testimony most of the agencies missed that 
deadline, and that concerns us.
    We do not have, as everybody knows, any fudge factor on the 
ultimate date that is hitting us here, and just quickly, do you 
have any sense when you will have all of the contingency plans 
with estimates in front of you? Can you give us a new date that 
we can hold people accountable for?
    Mr. Lew. I cannot give you a firm date and, frankly, I 
think what is going to be happening is, we are going to be 
working with the agencies to refine what we get on an ongoing 
basis. There will not be a date when they are finished. They 
are going to keep proceeding with their planning and their work 
right until the end. I think in the next several weeks we will 
have a lot more than we have now. We have been working with the 
committees' staff and with you directly on each of the 
allocations, and we will continue to do so as we review the 
contingency plans.
    We have tried to be responsive to any of the issues raised 
in the course of those consultations and would continue to do 
so. If we discover a problem, or you discover a problem, we 
would like to keep the conversation going.
    I wish I could say that I will have all the plans on June 
30. When we set deadlines we try to be realistic about agency 
compliance patterns, and I think we are still in decent shape. 
If the President had not set March 31 as a deadline, we would 
not be sitting here today with the results that we have, and I 
dare say the same is true about the June 15 deadline.
    I would wish that at all times agencies would respond with 
great punctuality, but we did build in a little bit of room.
    Chairman Bennett. If my friend Senator Dodd were here, I 
know he would have a few words to you to say about the 
importance of meeting deadlines and how carefully he will 
monitor those deadlines. Since he got married over the weekend 
he may have other things on his mind, but I assure you that he 
and the committee will be watching these dates very carefully.
    Senator Stevens.

  Potential need for another flexible fund to respond to Y2K problems

    Chairman Stevens. Well, I want to make sure about this 
authority problem that you have indicated a couple of times, 
Mr. Lew. I have the same feeling. There is no basic authority 
like the President, as Commander in Chief, possesses for taking 
care of troops. You know, the food and forage concept.
    I would like to contemplate, or like to have resolved how 
to establish an emergency authority in one single area. I take 
it would be the President's decision that would get that, but I 
also assume it would be OMB. I think we have to have that. I 
think we have to have someone with the authority to make the 
decision to use funds from wherever they have to be taken if 
there is an emergency that develops. We will be out of session. 
It is the holiday period where these crises could take place.
    We also have critical non-Federal actions that may need 
correction, or might need assistance because they impact our 
mission-critical systems at a time in an unexpected way. I do 
not think you have the authority today to use funding for that 
purpose, but I do think you should have it. I also think that 
whatever we do along that line we should require a report from 
you to Congress, so that when we come back into session we can 
review what has happened and see whether adjustments are 
necessary to other accounts because of that.
    But I would urge you to think about that, and Mr. Walker, 
you might review that also. I think in one of these bills that 
is coming along we ought to start a basic designation of who 
has that authority, how it is to be exercised, and what the 
scope of it is. If it goes outside the mission-critical Federal 
systems to the area where non-Federal actions might have an 
impact on the plans or contingency plans that we may have to 
put into effect.
    Clearly, I think that the public is going to expect that we 
have placed, somewhere in the administration, the authority to 
take action, and I still believe it is sort of like any other 
time of weakness.
    Are you a fisherman? I remember when I was fishing down off 
of Pulaski Light, and I learned how to fish for the giant 
barracuda. You really fish for the mackerel, but just as the 
mackerel hits the bait, that is when the barracuda likes to hit 
the mackerel. I am thinking there are a lot of barracudas out 
there that would like to have an impact on our Federal systems 
at a time of apparent weakness. We ought to guard against that, 
and we ought to have authority.
    Again, I urge you to think about someone having a FEMA 
responsibility. There has to be a fireman there somewhere, and 
it is going to take some further analysis of this, as I am sure 
that Senator Bennett's committee will do.
    We are here today primarily because of the implications of 
future funding that may be required. Even beyond that is the 
basic authority to use whatever funds are available should a 
substantial crisis develop.
    Mr. Lew. Senator Stevens, I think it is an important 
distinction, because the truth is, if there is an emergency in 
an area where funds have been appropriated and authority 
exists, you could spend down money and could replenish the 
funds with a supplemental later on. I think the real critical 
issue in terms of being able to respond in a timely manner is 
whether the scope of authority is broad enough.
    We have very substantial authorities to respond to most of 
the contingencies that are directly Federal. I think the issue 
here is whether it would be desirable to have a broader Federal 
responsibility for non-Federal response.
    Chairman Stevens. I am not talking about responsibility. I 
am talking about ability to act where there is a definite 
connection between the systems we rely on for our people 
through the Federal Government and those that are non-Federal, 
where the contingency planning or the planning may be 
defective, and we will not know that until it is too late.
    Mr. Lew. Just to use an example, if there is a Federal 
agency where communications are critical, then the Federal 
responsibility is to have backup communication capacity so the 
Federal agency can communicate. It is not a Federal obligation 
to bring up the telephone system for the entire area. We have 
the authorities to our knowledge to do what we need for the 
Federal backups to be provided for.
    The area where there is a question about authority is also, 
I think, where there is a question about whether it is a 
desirable Federal role. As we go through these contingency 
plans, if we discover additional needs for authority, I would 
welcome the invitation to pursue it with you. We clearly want 
to have whatever authorities we need to deal quickly and with 
agility to things that almost by definition are as 
unpredictable as the barracuda eating the mackerel.
    Chairman Stevens. The National Guard is in every State, and 
it is an entity in every State. I think somewhere along the 
line there has to be some entity like that where the standby 
capacity to assist in areas that are life threatening, that 
relate to Federal activities, or are threatening to the economy 
in general--well, we will work with you on it.
    Mr. Walker.
    Mr. Walker. Mr. Chairman, while obviously our first and 
foremost priority needs to be Federal programs and U.S. 
citizens, you touched on the international aspect. The fact of 
the matter is, we are in a global economy, and as I looked 
today at GAO's daily news clips, there is an article that comes 
to mind, the source of which is published through the Gartner 
Group, which is one of the leading information consulting 
firms. It has attempted--we have not attempted to verify this--
to rank various countries into different levels, level 1 being 
the best prepared, of which I am pleased to say the United 
States and Canada are on that level; level 2 is where Mexico 
falls; but if I look at level 4, which is the lowest level, you 
have countries such as Russia and Pakistan, and clearly there 
are security issues associated with that which I think we have 
to keep in mind. While that is not our primary responsibility, 
it is not inconceivable that there could be some issues there.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you very much.
    Chairman Bennett. Thank you. We appreciate your being here 
and appreciate your patience with the questioning. If we have 
further questions we will submit them to you in writing, and as 
Senator Stevens said, Senator Byrd, who was not able to be with 
us, will have some questions for you in writing.

                         conclusion of hearing

    Chairman Bennett. Thank you very much. The committee is 
recessed.
    [Whereupon, at 11:10 a.m., Tuesday, June 22, the hearing 
was concluded, and the joint committees were recessed, to 
reconvene subject to the call of the Chair.]

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
